<html>
<title> - AFGHANISTAN: WHAT IS AN ACCEPTABLE END STATE, AND HOW DO WE GET THERE</title>
<body><pre>[Senate Hearing 112-66]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-66
 
  AFGHANISTAN: WHAT IS AN ACCEPTABLE END STATE, AND HOW DO WE GET THERE

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


       Available via the World Wide Web: http://www.fdsys.gpo.gov


                  U.S. GOVERNMENT PRINTING OFFICE
67-888                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c0d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Haass, Hon. Richard N., president, Council on Foreign Relations, 
  New York, NY...................................................     6
    Prepared statement...........................................     9
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Neumann, Hon. Ronald E., president, American Academy of 
  Diplomacy, Washington, DC......................................    20
    Prepared statement...........................................    22
Slaughter, Anne-Marie, Bert G. Kerstetter '66 University 
  Professor of Politics and International Affairs, Princeton 
  University, Princeton, NJ......................................    12
    Prepared statement...........................................    16

              Additional Material Submitted for the Record

Inhofe, Hon. James M., U.S. Senator from Oklahoma, prepared 
  statement......................................................    52

                                 (iii)

  


 AFGHANISTAN: WHAT IS AN ACCEPTABLE END STATE, AND HOW DO WE GET THERE?

                              ----------                              


                          TUESDAY, MAY 3, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Casey, Webb, Shaheen, 
Coons, Durbin, Udall, Lugar, Corker, and Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Hearing will come to order. Thank you all for 
coming to join us today.
    By events that we obviously had no way of predicting, the 
issues that are in front of this committee at this point in 
time are even more compelling and more relevant than they would 
have been anyway. And they were relevant and compelling under 
any circumstance. We have been planning these hearings for some 
period of time, mostly because July represents that critical 
moment when the President will be making important decisions 
about our policy in Afghanistan. But, for all the obvious 
reasons, this is a seminal moment as we deliberate about our 
foreign policy and our national security interests.
    The death of Osama bin Laden is obviously an event of 
enormous consequence. His wealth, his iconic stature, gained by 
multiple murders and terrorist acts, going back to 1993 or so, 
his ability to plot, organize, direct, motivate, and recruit 
terrorists, all of those things made him a unique threat to our 
country and our allies. Bin Laden's death deals an enormous 
blow to al-Qaeda's ability to operate. It doesn't end the 
threat, however. But, still it is a major victory in the long 
campaign against terrorism waged by our intelligence agencies 
and our military.
    This event enhances America's security and it brings us 
closer to our objective of dismantling and destroying al-Qaeda; 
though, tragically, nothing can erase the bitter memories of 
September 11, 2001. The haunting images will be forever seared 
in our minds: the Twin Towers burning, people jumping hand in 
hand to escape the inferno, the buildings collapsing, floor 
upon floor successively, on themselves in a cloud of dust and 
destruction. But, we remember, too, the heroism of America's 
finest: the police, the firefighters, the emergency workers who 
gave their lives. These images and the realities that they 
meant, and mean still today, for nearly 3,000 families and for 
millions of people around the world, will never be forgotten.
    For anyone who has challenged America's right to go after 
Osama bin Laden, and there have been some, let them remember 
and consider the shameless, cowardly attack out of nowhere that 
bin Laden unleashed on the innocence of all those who suffered, 
and that he then laughed and bragged about. In the wake of 
World War II, it's hard to believe that one man's evil 
aspirations could again so convulse the world, so occupy our 
resources and transform our lives. But, he did. And now, thank 
God, he is dead.
    That death needs to be a lesson to all who embrace violence 
and anarchy in the guise of religious rectitude; the United 
States of America means what it says when we pledge to do 
whatever it takes to protect ourselves and mete out justice to 
those who wantonly murder and maim.
    So, bin Laden is dead. But, the fight against the violence 
and the hatred that he fomented is not over. In fact, there are 
many questions--many more than we might have thought--raised as 
a consequence of the events of the last 48 hours. And it is 
important for us, and for this committee, to think through and 
find answers to these questions.
    One of the reasons we're here this morning is to examine 
how Osama bin Laden's death affects the conflict in Afghanistan 
and its implications for our upcoming troop withdrawal, our 
transition strategy, and our partnerships in the region.
    This hearing is the first in a series of six hearings over 
the next 3 weeks. It builds on the 14 hearings that we held in 
the last Congress on Afghanistan and Pakistan. And we are 
fortunate to start with a well-qualified panel of witnesses.
    Dr. Richard Haass, president of the Council on Foreign 
Relations and a friend of this committee. He held many senior 
government positions, including working director of policy 
planning, and U.S. coordinator of policy toward the future of 
Afghanistan.
    He's joined by one of his successors, Dr. Anne-Marie 
Slaughter, who recently went to Princeton University's Woodrow 
Wilson School after serving as Secretary Clinton's Director of 
Policy Planning.
    Rounding out this group is three-time Ambassador Ronald 
Neumann who currently serves as the president of the American 
Academy of Diplomacy. And, like his father in the late 1960s, 
Ambassador Neumann served as our envoy to Afghanistan from 2005 
to 2007, and recently returned from a trip there.
    So, we thank you all for coming and look forward to a 
vigorous discussion.
    I would just say quickly--before we begin and I turn to my 
colleague Senator Lugar--as we know, in 2 months, President 
Obama will unveil his strategy for drawing down our forces so 
that Afghans can assume a greater responsibility for their 
country and their future. Our military is making significant 
inroads, clearing the south, particularly, of insurgents. But, 
we do expect a significant Taliban counterattack this spring, 
in order to try to regain some of those areas. We also know 
insurgents are spreading into other areas of Afghanistan, even 
as we drive them from their bases in the south.
    Clearly, the challenge is not only on the battlefield. 
Despite the tremendous skill and sacrifice of our troops, again 
and again our military leaders and our civilian leaders have 
repeated the mantra, ``There is no military victory to be had 
in Afghanistan.'' If that is true and we accept that it is, 
then we need to fashion the political resolution.
    Out of these hearings, I hope that we can achieve a 
discussion with our partners about how this war ends, what an 
acceptable end state looks like, and what steps we need to take 
to get there.
    With the death of bin Laden, some people are sure to ask, 
``Why don't we just pack up and leave Afghanistan?'' So, it's 
even more compelling that we examine carefully what is at 
stake, what goals are legitimate and realistic, what is our 
real security challenge, and how do we achieve the interests of 
our country. What type of Afghanistan do we plan to leave so 
that we may actually achieve those objectives, and how will 
that peace be achieved?
    Our reintegration efforts, frankly, have had limited impact 
so far. Reconciliation may be more promising in the long run, 
but it will not be fast and it is not a silver bullet. And 
there may be no grand bargain to be had with Mullah Omar or 
groups like the Haqqani Network. Although obviously one of the 
questions that looms in front of us is: How, if at all, has the 
death Osama bin Laden and the events of recent hours affected 
even the answer to those questions? Some Taliban appear to be 
willing to negotiate. There are different tiers of Taliban. So, 
the United States needs to send a strong and consistent message 
that we support a political solution led by Afghans. It will be 
difficult, as it was in Iraq, but Afghans themselves have to 
make the hard choices to bring stability to their own country.
    So, as we debate the end state, it is inevitable that we 
need to factor in also what can we afford to do, in light of 
our budget constraints and realities in this country? We will 
spend $120 billion in Afghanistan this fiscal year. And our 
decisions on resource allocations there affect our global 
posture elsewhere, as we see today in the Middle East, with the 
crying challenge of Egypt, Tunisia, and other countries. We 
have to ask at every turn if our strategy in Afghanistan is 
sustainable. Our military and civilian strategies need to 
support an Afghanistan that is viable as we transition and draw 
down our forces.
    And finally, we have to consider the regional context, 
particularly Pakistan's role and what bin Laden's presence 
there says about that alliance and about the prospects for 
peace in Afghanistan. Sanctuaries in Pakistan continue to 
threaten the prospects for peace in Afghanistan. And, while we 
have been working closely with our Pakistani allies to address 
our common threats, ultimately we must address Pakistani 
concerns about what the end state in Afghanistan will look 
like.
    All of this will take patience, it will take careful 
thinking, it will take strategic decisionmaking, and it will 
take a lot of patience and determination. I am confident that 
we have the ability to achieve our goals and to get where we 
need to go.
    I thank each of you for joining us at this important 
moment.
    Senator Lugar, it is my pleasure to turn the floor over to 
you.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. I join the Chairman in welcoming our 
distinguished witnesses, and I thank him for holding this 
series of hearings on Afghanistan and Pakistan.
    These hearings are especially timely, as you pointed out, 
given the killing of Osama bin Laden. Americans are rightly 
gratified by the skill and courage demonstrated by our 
intelligence professionals and troops. This is an important 
achievement that yields both symbolic and practical value as we 
continue to fight terrorism globally.
    As a prelude to our series, I would offer four observations 
about the ongoing United States effort in Afghanistan.
    First, we are spending enormous resources in a single 
country. The President's budget request for fiscal year 2012 
included more than $100 billion for Afghanistan. We have 
approximately 100,000 American troops in Afghanistan and 
another 31,000 in the region that are supporting Afghanistan 
operations. We spent $9.2 billion in 2010, and we are spending 
more than $10 billion this year just to train Afghan security 
forces. President Obama has requested nearly $13 billion for 
training in 2012. Simultaneously, we are spending roughly $5 
billion per year on civilian assistance mechanisms in 
Afghanistan at a time when most foreign assistance projects 
worldwide are being cut.
    Second, although threats to United States national security 
do emanate from within Afghanistan's borders, these may not be 
the most serious threats in the region and Afghanistan may not 
be the most likely source of a major terrorist attack. Last 
February, Homeland Security Secretary Janet Napolitano and 
Director of the National Counterterrorism Center, Michael 
Leiter, said in congressional testimony that Yemen is the most 
likely source of a terrorist attack against American interests 
in the short term. American resources devoted to Yemen are a 
tiny fraction of those being spent in Afghanistan. Further, we 
know that al-Qaeda has a far more significant presence in 
Pakistan than in Afghanistan.
    Third, the broad scope of our activities in Afghanistan 
appears to be devoted to remaking the economic, political, and 
security culture of that country. But we should know by now 
that such grand nation-building ambitions in Afghanistan are 
beyond our powers. This is not to say that we cannot make 
Afghanistan more secure than it is now. But the ideal of a 
self-sufficient, democratic nation that has no terrorists 
within its borders and whose government is secure from tribal 
competition and extremist threats is highly unlikely. The most 
recent ``Section 1230 Report on Progress Toward Stability and 
Security in Afghanistan'' indicates that improvements in Afghan 
governance and development have been inconclusive. All of the 
investments to date and the shift to a comprehensive 
counterinsurgency strategy led by General Petraeus have yielded 
some gains in select areas. The prominent caveat within the 
Defense Department report, however, and sprinkled across nearly 
all recent official statements by the Obama administration is 
that these gains are ``fragile and reversible.''
    Fourth, although alliance help in Afghanistan is 
significant and appreciated, the heaviest burden will continue 
to fall on the United States. We have contributed $26.2 billion 
to the Afghanistan national security forces from 2002 to 2011, 
while the rest of the world, donating through the Afghanistan 
National Security Force Fund, has provided $2.6 billion. 
Similarly the United States has provided $22.8 billion in 
nonmilitary assistance since 2002, while donor partners have 
provided $4.2 billion. We are carrying the lion's share of the 
the economic and military burden in Afghanistan and this is 
unlikely to change. Alliance military activities in connection 
with the civil war in Libya further reduce the prospects for 
significantly greater allied contributions in Afghanistan.
    If one accepts these four observations, it is exceedingly 
difficult to conclude that our vast expenditures in Afghanistan 
represent a rational allocation of our military and financial 
assets. Our geostrategic interests are threatened in numerous 
locations, not just by terrorism, but by debt, economic 
competition, energy and food prices, the proliferation of 
weapons of mass destruction, and numerous other forces.
    Some may argue that almost any expenditure or military 
sacrifice in Afghanistan is justified by the symbolism of that 
country's connection to the September 11 attacks. But nearly a 
decade later, with al-Qaeda largely displaced from the country, 
but franchised in other locations, Afghanistan does not carry a 
strategic value that justifies 100,000 American troops and a 
$100 billion per-year cost, especially given current fiscal 
restraints here at home.
    President Obama must be forthcoming on a definition of 
success in Afghanistan based on United States vital interests 
and a sober analysis of what is possible to achieve. Clearly it 
would not be in our national security interest to have the 
Taliban take over the government or have Afghanistan 
reestablished as a terrorist safe haven. But the President has 
not offered a vision of what success in Afghanistan would 
entail or how progress toward success would be measured. The 
outcome in Afghanistan when United States forces leave will be 
imperfect, but the President has not defined which 
imperfections would be tolerable. There has been much 
discussion of our counterinsurgency strategy and methods, but 
very little explanation of what metrics must be achieved before 
the country is considered secure.
    I noted in our last hearing on Afghanistan in July 2010, 
that we must avoid defining success there according to relative 
progress. Such definitions facilitate mission creep. Arguably, 
we could make progress for decades on security, employment, 
good governance, women's rights, and other goals--expending 
tens of billions of dollars each year--without ever reaching a 
satisfying conclusion.
    A definition of success must be accompanied by a plan for 
focusing resources on specific goals. We need to eliminate 
activities that are not intrinsic to our core objectives. We 
also need to know what missions are absolutely indispensable to 
success, however it is defined.
    I am hopeful that these hearings will bring greater focus 
to the mission and strategy in Afghanistan in the context of 
broader United States vital interests.
    I look forward to our discussions.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    We're going to go in the order of Dr. Haass, then Dr. 
Slaughter, and then Ambassador Neumann.
    And, as is customary here, we're happy to put your entire 
testimony in the record as if read in full. We'd appreciate 
summaries, so that we have a chance to really have a good 
dialogue here this morning.
    I failed to mention, I will be going to Afghanistan next 
weekend--not this one coming, but the one after--and hope to be 
able to get a good sense, from the Afghans, from President 
Karzai and others, what their take is on where we are, as well 
as the events that have taken place in Pakistan and how that 
might affect some of their calculations. So, we could add that 
to the record as we go forward.
    Dr. Haass, welcome.

   STATEMENT OF HON. RICHARD N. HAASS, PRESIDENT, COUNCIL ON 
                FOREIGN RELATIONS, NEW YORK, NY

    Ambassador Haass. Thank you, Senator. Thank you. And thanks 
for having me back here to discuss Afghanistan.
    And, as has been the case whenever I testify here over the 
years, my statement and testimony reflect my personal views and 
not those of the Council on Foreign Relations.
    As you all know, much of the debate about Afghanistan has 
focused on whether United States policy is likely to succeed. 
With success loosely defined as bringing about an Afghan 
Government that, in several years time, can hold off the 
Taliban with only a modest amount of ongoing American help. In 
theory at least, several more years of intense U.S. military 
effort will provide the time and space required to train the 
Afghan Army and police, and weaken the Taliban so that the 
Taliban will no longer constitute an overwhelming threat, or, 
better yet, decide to negotiate to end the conflict.
    Let me say as directly as I can, I am deeply and profoundly 
skeptical that this policy will work, given the nature of 
Afghanistan; in particular, the weakness of its central 
institutions, and the reality that Pakistan will continue to 
provide a sanctuary for the Taliban. So, yes, U.S. forces will 
succeed at clearing and holding. But, successful building by 
the end of 2014 is at best a long shot. Some Taliban may give 
up, but many, and probably most, will not. Afghan military and 
police forces will increase in number and improve in 
performance, but not as much as is needed.
    The bigger question I'd like to talk about, though, is 
whether it is worth--what we are doing is worth it, even if we 
were to succeed. And I would argue not. Afghanistan, over the 
years, has evolved from a war of necessity into a war of 
choice. Our interests there have become less than vital with 
the near elimination of
al-Qaeda in Afghanistan. Afghanistan no longer represents a 
significant global terrorist threat, and certainly no more of 
one than several other countries, most notably Pakistan, in the 
region.
    Second, there were, and are, other viable policy options 
available to us there. In particular, a more narrow and limited 
counterterrorism strategy coupled with a limited degree of 
nation- or capacity-building.
    The situation in Afghanistan did not, and does not, warrant 
our becoming a protagonist in its civil war, the adoption of a 
counterinsurgency strategy, or the tripling of United States 
force levels to 100,000. Afghanistan is not a major terrorist 
haven, as I said. And it should not be assumed it will become 
one even if the Taliban make inroads. It was, and is, an error 
to equate Taliban return with al-Qaeda's return. And if, 
however, there is some renewed terrorist presence and activity 
in Afghanistan, we can, and should, respond to it, much as we 
do in other countries, such as Yemen and Somalia.
    The Afghan/Pakistan tie is at the heart of our policy, but 
also its limits. There is no way, I would argue, the United 
States will be able to persuade Pakistan to become a full 
partner in Afghanistan and to stop providing a sanctuary to the 
Afghan Taliban. Given Islamabad's obsession with India and its 
view of Afghanistan as a critical source of strategic depth in 
its struggle with India, even a solution to the Kashmir 
conflict would not change this. And there is no solution to 
Kashmir in the offing, certainly not in a timeframe that would 
prove relevant.
    Afghanistan is simply absorbing more economic, military, 
human, diplomatic, and political resources of every sort that 
it wants. The $120 billion annual pricetag, about $1 out of 
every $6 or $7 this country now spends on defense, is 
unjustifiable, given the budget crisis we face and the need for 
air and naval modernization.
    The history of the 21st century is far more likely to be 
determined in the land areas and waters of Asia and the Pacific 
than it is on the plains and mountains of Afghanistan. We need 
to be better prepared for a number of future counterterrorist 
interventions elsewhere in the greater Middle East and Africa. 
And we should also make sure that we have adequate forces for 
dealing with possible contingencies on the Korean Peninsula and 
possibly Iran. Afghanistan is a strategic distraction, pure and 
simple.
    All this is not an argument for complete withdrawal, but it 
is an argument for doing considerably less than we are doing, 
by transitioning rapidly, over the next year or year and a 
half, to a relatively small, sustainable, strategically 
warranted deployment, one I would estimate to be on a scale of 
10,000 to 25,000 troops. And this future troop presence should 
allow for continued counterterrorist operations along the lines 
of the sort of operation just carried out by United States 
Special Forces in Pakistan, and for some training of Afghan 
forces at both the national and local level.
    Reductions of the scale I am advocating and the phasing out 
of combat operations against the Taliban have a number of 
advantages, beginning with the fact that it would save upward 
of $75 billion a year and hundreds of American lives and 
casualties. Continuing what we are doing, on the scale we are 
doing, will not necessarily achieve more than what is being 
suggested by what I am advocating, given Afghanistan's history, 
leadership, demography, culture, geography, and neighborhood. 
And, even if substantial progress could be achieved in the near 
term, there's nothing to suggest the gains would endure.
    Strategy, as you all know, is about balancing means and 
ends, resources and interests. And the time has come to restore 
a strategic perspective to what the United States does in 
Afghanistan.
    Let me, if I can, turn for a few minutes briefly to 
discussing Pakistan. Pakistan is more important than 
Afghanistan, given its population, its arsenal of nuclear 
weapons, the presence of large numbers of terrorists on its 
territory, and the reality that what happens in Pakistan will 
directly affect India.
    There is the view, in the administration and beyond, that 
the United States has to do a lot to stabilize Afghanistan, 
lest it become a staging ground for groups that would undermine 
Pakistan. But it is Pakistan that is providing the sanctuary 
and support to the Afghan Taliban, who are the greatest threat 
to Afghanistan's stability. So, why the United States should be 
more concerned than Pakistanis that Afghanistan could one day 
endanger Pakistan is not clear. It also exaggerates 
Afghanistan's actual and potential influence over developments 
in Pakistan. To be sure, Pakistan is a weak state. But, this 
weakness results far more from internal divisions and poor 
governance than anything else. If Pakistan ever fails, it will 
less be because of insurgents coming across their border than 
from decay within.
    It is hard to imagine a more complicated bilateral 
relationship than the one between Washington and Islamabad. And 
it's about to become more complicated yet. Pakistan is, at 
most, a limited partner. It is not an ally. And, at times, it 
is not even a partner. The United States should be generous in 
providing aid to Pakistan only so long as that aid is made 
conditional on how it is used. But, we must accept that, no 
matter what the level of aid, there will always be clear 
differences between how Americans and Pakistanis see the world, 
and sharp differences over what is to be done.
    So, let me suggest a simple guide to U.S. foreign policy 
when it comes to Pakistan. We should cooperate where and when 
we can, but we should act independently where and when we must. 
And the recent successful operation that killed Osama bin Laden 
is a case in point.
    Let me just turn to one last subject, which is that of 
diplomacy, affecting this entire set of questions. There's 
growing interest and there's three particular ideas that are 
gaining some currency: One is negotiations involving the 
Government of Afghanistan and the Taliban; second, negotiations 
involving India and Pakistan; and third, resurrecting some sort 
of a regional forum.
    In the interest of time, for now, let me just say, I am 
quite skeptical about the possibility for diplomacy resolving 
the internal questions in Afghanistan. I am even more skeptical 
of the potential of diplomacy to resolve the differences 
between India and Pakistan. But, I do think there is reason to 
proceed with the possibility of some sort of a regional forum, 
along the lines of the old ``Six Plus Two'' forum, that 
actually did contribute somewhat.
    In this context, I would also endorse talks between the 
United States and those Taliban leaders willing to engage. 
Direct communication between the United States and the Taliban 
would be preferable to allowing either Pakistan or the 
Afghanistan Governments to act as our go-between. I therefore 
support the decision announced by the Secretary of State to 
drop preconditions for talking to the Taliban. What matters in 
any dialogue is less where it begins than where it ends. But, 
the Taliban need to understand that we will attack them if they 
associate with terrorists, and we will only favor their 
participation in a political process if they forgo violence.
    Let me just end with one last thought. We should not kid 
ourselves. Whatever it is we do or don't do, vis-a-vis Pakistan 
or Afghanistan, there is unlikely to be a rosy future for 
Afghanistan anytime soon. The most likely future, for the next 
few years and possibly on, is some form of a messy stalemate, 
an Afghanistan characterized by a mix of a weak central 
government, strong local officials, and a Taliban presence, 
supported out of Pakistan, that will be extensive in much of 
the Pashtun-dominated south and east of Afghanistan.
    Resolution of the ongoing conflict by either military or 
diplomatic means is highly unlikely and cannot constitute a 
basis for U.S. policy. Walking away from Afghanistan, however, 
is not the answer. Instead, I would argue this country should 
sharply scale back what we are doing and what we seek to 
accomplish. And we should aim for an Afghanistan that is simply 
``good enough,'' in light of local realities, limited 
interests, and the broad range of domestic and global 
challenges now facing the United States.
    Thank you very much.
    [The prepared statement of Ambassador Haass follows:]

                 Prepared Statement of Richard N. Haass

    Mr. Chairman, thank you for asking me to appear before this 
committee, in this instance to discuss U.S. policy toward Afghanistan 
and, more specifically, what constitutes an acceptable end state in 
that country and how the United States can best work to bring it about. 
As has been the case over the past 8 years, my statement and testimony 
today reflect my personal views and not those of the Council on Foreign 
Relations, which takes no institutional positions on matters of policy.
    The questions that inform this hearing are at one and the same time 
critical yet difficult to answer. Indeed, I have come to think that 
just about anything associated with Afghanistan is difficult. I first 
visited that country as a researcher in the late 1970s in the months 
preceding the Soviet-engineered coup. Just over a decade later, 
Afghanistan was part of my portfolio of responsibility when I served as 
the senior director for Near East and South Asian Affairs on the 
National Security Council staff of President George H.W. Bush. It was 
in the first weeks of that administration--in February, 1989, to be 
precise--that the Soviet military presence in Afghanistan came to an 
end. And, more recently, in the aftermath of 9/11, I served as U.S. 
coordinator for the future of Afghanistan under President George W. 
Bush.
    Much of the debate about Afghanistan has focused on whether U.S. 
policy is likely to succeed, with ``success'' loosely defined as 
bringing about an Afghan Government that in several years' time can 
hold off the Taliban with only a modest amount of continuing American 
help. In theory, several more years of intense U.S. military effort 
will provide the time and space required to train up the Afghan Army 
and police and weaken the Taliban so that they no longer constitute an 
overwhelming threat or, better yet, decide to negotiate an end to the 
conflict.
    I am deeply skeptical that this policy will work given the nature 
of Afghanistan (above all, the weakness of central institutions) and 
the reality that Pakistan will continue to provide a sanctuary for the 
Taliban. Yes, U.S. forces will succeed at clearing and holding, but 
successful building by the end of 2014 is a long shot at best. Some 
Taliban may give up but many and probably most will not. Afghan 
military and police forces will increase in number and improve in 
performance but not nearly as much as is needed.
    Of course, I may well be proven wrong here, and sincerely hope I 
will be if the decision is made to keep U.S. troop levels in 
Afghanistan relatively high until the end of 2014 or even longer, as is 
possible if the United States bases any withdrawal decision on 
conditions that will be difficult to bring about. But the bigger 
question hovering over current U.S. Afghan policy is whether it is 
worth it even if it were to succeed. I would argue it is not, both on 
the micro (local) level and the macro (global) level.
    Some perspective is required. American troops have been fighting in 
one form or another in Afghanistan for nearly a decade. But it is 
essential to note that today's Afghan war is fundamentally different 
than the one waged after the 9/11 attacks. That war was a war of 
necessity: the most important national interest (self-defense) was 
involved, and there were no promising, timely alternatives to the use 
of military force once it became clear diplomacy would not bring about 
an end to Afghan Government, i.e., Taliban, support for global 
terrorism.
    Over time, however, Afghanistan evolved into a war of choice. What 
made it so were two developments. First, U.S. interests had become less 
than vital with the near-elimination of al-Qaeda in Afghanistan. 
Afghanistan no longer represented a significant global terrorist 
threat, and certainly no more of one than several other countries (most 
notably, Pakistan) in the region and in Africa. Second, there were 
other viable policy options available to the United States in 
Afghanistan, in particular a more narrow and limited counterterrorism 
strategy coupled with a degree of nation, i.e., capacity-building. The 
situation did not warrant our becoming a protagonist in Afghanistan's 
civil war, the adoption of a counterinsurgency strategy, or the 
tripling of U.S. force levels to near 100,000.
    Just to be clear, wars of choice are not wrong per se. But before 
undertaking one, it is essential to demonstrate that the likely 
benefits of using military force will outweigh the costs and produce 
better results at less cost than other policies. Afghanistan does not 
meet these tests. It is not a major terrorist haven, and it should not 
be assumed it will again become one even if the Taliban make inroads. 
It was and is an error to equate Taliban return with al-Qaeda's return. 
If there is some renewed terrorist presence and activity in 
Afghanistan, we can and should respond to it much as we have been doing 
in other countries such as Yemen and Somalia.
    The Afghan-Pakistan tie is at the heart of U.S. policy and its 
limits. There is no way the United States will be able to persuade 
Pakistan to become a full partner in Afghanistan (and stop providing 
sanctuary to the Afghan Taliban) given Islamabad's obsession with India 
and its view of Afghanistan as a critical source
of strategic depth in its struggle with India. Even a solution to the 
Kashmir con-
flict would not change this--and there is no solution to Kashmir in the 
offing, cer-
tainly not in a timeframe that would prove relevant to U.S. 
decisionmaking for Afghanistan.
    At the macro or global level, Afghanistan is simply absorbing more 
economic, military, human, diplomatic, and political resources of every 
sort than it warrants. The $110-$120 billion annual price tag--one out 
of every six to seven dollars this country spends on defense--is 
unjustifiable given the budget crisis we face and the need for military 
(especially air and naval) modernization. The history of the 21st 
century is far more likely to be determined in the land areas and 
waters of Asia and the Pacific than it is on the plains and in the 
mountains of Afghanistan. We had also better be prepared for a number 
of future counterterrorist interventions (along the lines of Somalia, 
Pakistan, and Yemen) in Libya and elsewhere in the Greater Middle East 
and Africa. We also need to make sure we have adequate forces for 
possible contingencies on the Korean Peninsula and conceivably with 
Iran. Afghanistan is a strategic distraction, pure and simple. 
Secretary of Defense Gates's recent West Point speech makes a case for 
avoiding sending a large American land force into places like 
Afghanistan. I agree. But less clear is why we should continue to 
deploy a large number of soldiers there for the present and near 
future.
    All this is an argument for doing considerably less than what we 
are doing, by transitioning rapidly (by mid- or late 2012) to a 
relatively small, sustainable, strategically warranted deployment, one 
I would estimate to be on a scale of 10,000-25,000 troops. The precise 
number of U.S. troops would be determined by the terrorist threat, 
training goals, the role assigned to civilians and contractors, and 
what the Afghans were willing to accept. The future U.S. troop presence 
should allow for continued counterterrorist operations (along the lines 
of what was just carried out by Special Forces in Pakistan) and for 
training of Afghan forces at both the national and local level.
    Such a strategy would be consistent with existing policy, i.e., the 
President all along has said the United States would begin troop 
reductions as of mid-2011. At issue is the pace or glide slope of U.S. 
troop reductions. The President did not commit to any particular pace 
or end point.
    Reductions of the scale being advocated here and the phasing out of 
combat operations against the Taliban have a number of advantages. It 
would save upward of $75 billion a year and sharply reduce American 
casualties. Doing so takes into account Afghan nationalism and the 
understandable popular desire to limit foreign forces in number and 
role. Doing less with less avoids a large footprint that would be 
costly and risks wearing out our welcome. A more modest strategy is a 
more sustainable strategy in every way.
    Continuing to do what we are doing on the scale we are doing it 
will not necessarily achieve more than what is being suggested here 
given Afghanistan's history, leadership, demography, culture, 
geography, and neighborhood, in particular Pakistan. And even if 
substantial progress is achieved in the near term, there is nothing to 
suggest those gains will endure. Strategy is about balancing means and 
ends, resources and interests, and the time has come to restore 
strategic perspective to what the United States is doing in 
Afghanistan.
    At the same time, to say that current policy in Afghanistan is not 
warranted by either the stakes or the prospects is not to say the 
United States has no interests or can achieve nothing. There is a need 
for continued counterterror and counterdrug operations. There is also a 
case for continued training of government and local forces. The United 
States has an interest in seeing human rights respected in Afghanistan. 
A continued U.S. military presence would provide a backdrop for efforts 
to persuade individual Taliban troops and commanders to give up the 
fight and negotiate a modus vivendi with the Afghan Government. The 
intention of keeping some troops after 2012 takes away the argument 
that we are leaving Afghanistan, something that should reassure many 
Afghans in and out of government, those Pakistanis who want to know the 
U.S. commitment is continuing beyond 2014, and those in this country 
who do not want to do anything that could be interpreted as losing and 
thereby handing a victory to extremists.
    An additional argument against withdrawing is that great powers 
need to be careful about making dramatic policy changes. Revising a 
policy is one thing; reversing it quite another. A reputation for 
reliability is important. This line of thinking, however, should not be 
employed to justify a continued commitment of large numbers of lives, 
dollars, and time on behalf of questionable goals.
    Consistent with the desirability of maintaining a military presence 
in Afghanistan, I support talks taking place between the U.S. and 
Afghan Governments on a long-term security relationship, one that would 
include U.S. forces remaining in the country for some time to come. 
There is obviously a significant degree of internal Afghan and regional 
resistance to this notion. To help allay some of these concerns, there 
should be no U.S. permanent bases and no permanent U.S. troop presence. 
The arrangement could be for an initial period of 5 to 10 years and 
could be cancelled by either side with 1 year's notice.
    I understand that this hearing is about Afghanistan, but for any 
number of reasons it is impossible to discuss it without also 
discussing Pakistan. Pakistan is widely acknowledged to be more 
important than Afghanistan given its population, its arsenal of nuclear 
weapons, the presence of large numbers of terrorists on its territory, 
and the reality that developments in Pakistan can have a profound 
impact on the trajectory of India, sure to be one of the most important 
countries in the world.
    More specifically, there is the widespread view that the United 
States has to do a great deal to stabilize Afghanistan lest it become a 
staging ground for groups that would undermine Pakistan. But it is 
Pakistan that is providing the sanctuary and support to the Afghan 
Taliban who are the greatest threat to Afghanistan's stability. The 
Pakistanis are doing so because they want to retain influence in their 
neighbor and to limit Indian inroads.
    Why the United States should be more concerned than Pakistanis that 
Afghanistan could one day endanger Pakistan is not clear. More 
important, this view exaggerates Afghanistan's actual and potential 
influence over developments in Pakistan. To be sure, Pakistan is a weak 
state. But this weakness results more than anything from internal 
divisions and poor governance. If Pakistan ever fails, it will be less 
because of insurgents coming across its borders than from decay within 
them.
    It is hard to imagine a more complicated bilateral relationship 
than the one between Washington and Islamabad. Pakistan is at most a 
limited partner; it is not an ally, and at times it is not even a 
partner. There are many reasons for the mutual mistrust; what matters 
for our purposes here is that it is pervasive and deep. The United 
States should be generous in providing military and economic assistance 
only so long as it is made conditional on how it is used; U.S. markets 
should be more open to Pakistani exports. But we must accept that there 
will always be clear differences to how we see the world and sharp 
differences over what is to be done. Under these circumstances, U.S. 
foreign policy should follow a simple guide: we should cooperate with 
Pakistan where and when we can, but we should act independently where 
and when we must. The recent successful operation that killed Osama Bin 
Laden is a case in point.
    Interest is growing in the possibility of diplomacy to contribute 
to U.S. policy. Three potential paths are receiving considerable 
attention. One involves the Government of Afghanistan and the Taliban. 
There is talk of moving toward some sort of a new ``shura'' that would 
attempt to integrate the Taliban into the formal ruling structure of 
Afghanistan. The second involves India and Pakistan. The third involves 
neighboring and regional states, including Pakistan as well as Iran, 
India, China, Russia, Saudi Arabia, and others. This would resemble the 
``6 plus 2'' forum that facilitated Afghan-related diplomacy in the 
past.
    I judge prospects for a major breakthrough on either the Afghan/
Taliban or India/Pakistan fronts to be poor. There is a weak and 
divided Afghan Government that enjoys at best uneven support around the 
country. The Taliban are themselves divided. Pakistan has its own 
agenda. It is far from clear that the situation is ripe for a power-
sharing accord that would meaningfully reduce much less end the 
fighting. India and Pakistan are far apart and again it is not clear 
the leadership in either government is in a position to undertake 
significant negotiations involving meaningful compromise. None of this 
is reason not to explore these possibilities, but expectations should 
be kept firmly in check. Prospects might be somewhat better for 
reviving a regional forum, though, and this possibility should be 
pursued.
    I should add that I endorse talks between the United States and 
those Taliban leaders willing to engage. Direct communication is much 
preferable to either the Pakistan or Afghan Governments acting as an 
intermediary. Consistent with this perspective, the decision announced 
by Secretary of State Clinton in February to drop preconditions for 
talking to the Taliban was a step in the right direction. The same 
logic holds for our rejecting any Taliban preconditions. What matters 
in a dialogue is less where it begins than where it ends. The Taliban 
should understand we will attack them if they associate with terrorists 
and we will only favor their participation in the political process if 
they forgo violence. The Taliban should also know that we will continue 
to provide military training and support to the Afghan central 
government and to local groups of our choosing.
    We should not kid ourselves, though: there is unlikely to be a rosy 
future for Afghanistan any time soon. The most likely future for the 
next few years and possibly beyond is some form of a messy stalemate, 
an Afghanistan characterized by a mix of a weak central government, 
strong local officials, and a Taliban presence (supported out of 
Pakistan) that is extensive in much of the Pashtun-dominated south and 
east of the country. Resolution of the ongoing conflict by either 
military or diplomatic means is highly unlikely and not a realistic 
basis for U.S. policy. Walking away from Afghanistan, however, is not 
the answer. Instead, this country should sharply scale back what it is 
doing and what it seeks to accomplish, and aim for an Afghanistan that 
is ``good enough'' in light of local realities, limited interests, and 
the broad range of both domestic and global challenges facing the 
United States.
    Thank you for this opportunity to appear before this committee. I 
look forward to your questions.

    The Chairman. Thank you very much, Dr. Haass. Very 
comprehensive and, I think, very appropriately provocative and 
thoughtful, as well. And we look forward to following up on it.
    Dr. Slaughter.
    By the way, Dr. Slaughter, welcome back. I don't know if 
many of you know it, but Dr. Slaughter was an intern here in 
this committee in 1979, through persistence, mostly, if I 
remember. [Laughter.]
    But, we welcome you back. You've come a long way.

   STATEMENT OF ANNE-MARIE SLAUGHTER, BERT G. KERSTETTER '66 
  UNIVERSITY PROFESSOR OF POLITICS AND INTERNATIONAL AFFAIRS, 
              PRINCETON UNIVERSITY, PRINCETON, NJ

    Dr. Slaughter. Thank you. I hope some of the interns around 
can imagine a similar return. Thank you for giving me the 
opportunity to testify, Chairman Kerry and Ranking Member 
Lugar.
    I want to start with three very different and quite 
dramatic images that frame the story of Afghanistan today.
    First, think about our troops posted on remote and often 
barren outposts in the valleys and on the mountains of 
Afghanistan, working under fiercely difficult conditions to 
defeat and drive out the Taliban. In the aftermath of Osama bin 
Laden's death yesterday, a former paratrooper with the U.S. 
Army Special Operations Command wrote of his deployment, ``Our 
job was to build a sustainable nation in a Mad Max wasteland, 
and we did our duty.''
    The second image is of the extraordinary operation carried 
out by the highly skilled and trained team of Navy Seals 
against Osama bin Laden's compound. They succeeded in 
accomplishing a key part of the mission that our troops are in 
Afghanistan to do: to destroy and degrade al-Qaeda. But, that 
success did not follow from state-building operations in 
Afghanistan. Indeed, it didn't even take place in Afghanistan, 
but in Pakistan.
    The third image is of young Arabs in Tunisia, Egypt, Libya, 
Bahrain, Yemen, and now Syria mustering the courage to face 
bullets, beatings, and brutality to claim their basic rights as 
human beings: to speak freely, to assembly freely, to 
participate in deciding how they'll be governed, and to hold 
their governments accountable for the provision of basic 
services and the possibility of a better life.
    The determination of those protestors, in their millions, 
to demand far more of their rulers even in desperately poor and 
conflict-ridden countries, is exactly the attitude of 
responsibility and self-reliance that we hope to see among the 
people of Afghanistan, but too often do not. Indeed, many 
reports from the field describe a culture of dependence, 
corruption, and inflated expectations that the United States 
and its allies have helped to create.
    As we reexamine our goals in Afghanistan and the next phase 
of how to secure those goals, it's worth bearing those three 
images in minds, the things that connect them and the 
disjunctures between them. We seek a secure, stable, and self-
reliant Afghanistan that does not provide sanctuary for al-
Qaeda and that is a crossroads for an increasingly prosperous 
and secure region.
    I disagree that Afghanistan is a strategic distraction. 
It's a strategic distraction only until the next attack. 
Moreover, we can't think about Afghanistan separately from 
Pakistan and India and, as I will argue, the broader Central-
Asian region, which is an extremely important region, going 
forward.
    A secure Afghanistan means a country with low levels of 
violence that is defended and policed by its own local, 
regional, and national forces. That means not only an end to 
open conflict between government and insurgents, but also the 
basic kind of everyday safety that allows citizens to go to 
work and to send their children to school. Establishing that 
kind of security in Afghanistan requires not only building up 
Afghan police and military forces, but also, and crucially, 
creating the kinds of incentives for them to risk their lives 
for the sake of protecting their own people.
    It also means removing U.S. troops as focal points and 
targets for Taliban attacks; attacks that end up alienating the 
very villagers that our soldiers seek to protect and win over. 
Our counterinsurgency strategy assumes that if we protect and 
serve the population of a village, they will have incentives to 
give us the information we need to protect ourselves and drive 
out the enemy. In some cases, for some periods of time, that 
has proved true. But, it's a strategy that assumes the troops 
providing protection are there to stay for as long as it takes 
to erase the possibility of retaliation by the enemy that's 
been informed against. As long as villagers know that we are 
going to leave someday, as we will, and as long as they lack 
faith in their own government to protect them, their instincts 
for self-preservation will tell them to keep quiet. Their 
incentives are to go with the winner, not to make us the 
winner.
    Moreover, the only real long-term security flows from 
competent and honest government, whether in a village in 
Afghanistan or in city neighborhoods in the United States. Real 
security in Afghanistan can come only if the central government 
has the incentives to choose and keep capable and honest local 
and regional officials, or a new constitution allows for more 
decentralized election of those officials, and mechanisms for 
citizens to hold them directly accountable.
    So, the key question, going forward, is how to align the 
Afghan Government's incentives with serving the interests of 
its people at every level. Many different strategies have been 
tried, but if we are embarking on a public transition from this 
period forward, we can make clear that, from now on, we will be 
investing in winners. Our development dollars, our civilian 
assistance, and our military advising and support will flow to 
those villages, towns, cities, and provinces that demonstrate 
the ability to help themselves. When a competent official is 
replaced with an incompetent one, we will shift resources 
elsewhere. The message at every turn must be that we have a 
strong interest in seeing Afghans succeed in securing and 
rebuilding their country, but not so strong that it means we 
will do it in their stead.
    Security is a necessary but not sufficient condition. We 
also need stability; stability meaning predictability. Real 
stability, as Chairman Kerry started, cannot be won by military 
force. It requires a political settlement that is sufficiently 
accepted by all sides to create a long-term political 
equilibrium. And the sooner we begin constructing that 
equilibrium the better.
    In a speech at MIT last week, former British Foreign 
Secretary, David Miliband, argued that a political settlement 
is not part of a multipronged strategy in a counterinsurgency. 
It is the overarching framework within which everything else 
fits and in the service of which everything else operates. He 
recommends that western countries in Afghanistan set out a 
unified and strong vision addressing the security situation, 
possible amendments to, or interpretations of, the Afghan 
Constitution, basic human rights guarantees for all Afghan 
citizens, and the best model of governance for Afghanistan. 
Such a vision would provide a diplomatic benchmark against 
which all negotiating parties can begin to adjust their 
positions. I can see value in such a course, but my purpose 
today is not to outline a specific diplomatic strategy.
    However we get negotiations on a political settlement 
underway, however, there's a great advantage to actually 
beginning the political endgame, rather than continually 
complementing it, in that it will force multiple players to 
reveal their true preferences about what they will and will not 
accept. Only with a sense of real redlines on all sides can a 
lasting deal be constructed.
    The death of Osama bin Laden creates a new opportunity to 
begin those negotiations. The United States has already made 
clear that his death is not the end of the war in Afghanistan. 
But, we should now mark this moment as the beginning of the 
end, as a moment that allows us to pivot toward a comprehensive 
political settlement that will bring security and stability to 
Afghanistan and greater security to Pakistan while still 
allowing the United States to take whatever measures are 
necessary to protect ourselves against al-Qaeda.
    That settlement has to be durable and consistent enough 
with the basic rights and interests of all Afghan citizens, 
sufficient to allow all countries, regional and international 
institutions, corporations, citizens to invest in Afghanistan's 
economic and social capital. The architects of a political 
settlement must pay equal attention to provisions that will 
provide a foundation for Afghanistan's economic future from 
trade and investment rather than foreign assistance.
    Let me turn to that economic vision. The last thing we seek 
is a self-reliant Afghanistan. U.N. officials, NGO officials, 
people with long experience in Afghanistan often point out that 
it is impossible to build the capacity of a foreign government 
when the inflated salaries offered by our government, other 
governments, NGOs, international institutions drain local 
talent from local institutions. When Afghan engineers make more 
as advisors, or even drivers and translators, to Westerners, it 
is small wonder that local and national government 
bureaucracies fall short. Moreover, large sums of aid without 
sufficient accountability mechanisms, and being distributed too 
fast, inevitably contribute to growing corruption.
    Moving forward in Afghanistan, we must be aware of our own 
inflationary footprint on the Afghan economy and the 
expectations of the Afghan people. It is worth exploring how 
governments and other organizations could conform much more to 
local conditions and to pay scales, as many of our soldiers 
often do. At the same time, we need to focus on finding export 
markets for Afghan farmers and entrepreneurs, and socially, as 
well as economically, profitable ways to exploit Afghanistan's 
mineral sector.
    The recent agreement by Pakistan and India's commerce 
secretaries to improve trade ties across a wide range of 
sectors, and a newfound confidence among Pakistani businessmen 
that they can compete in India's markets, are promising signs 
of a willingness to make long-held aspirations of regional 
markets a reality.
    Afghanistan's rich mineral resources are already attracting 
large-scale investment, with China the winning bidder for a $3 
billion project to exploit Afghanistan's largest copper mine. 
The agreement commits China to build a powerplant that could 
provide electricity to most of Kabul, and to build 
Afghanistan's first railroad which will run to the Chinese 
province of Xinjiang. Afghanistan also has a new outlet to the 
sea, thanks to a 135-mile road, constructed by India, 
connecting the Iranian port of Chabahar with Nimroz province in 
Afghanistan.
    Afghanistan is actually increasingly poised to resume its 
historic and very lucrative position as the trading crossroads 
of central and south Asia. And again, whereas Afghanistan 
itself may seem strategically less significant, Afghanistan, 
Pakistan, India, and the rest of central Asia are absolutely 
essential for the United States and, I would argue, for the 
world, going forward. The question for the United States is how 
a regional diplomatic agreement that would help address 
Pakistan's chronic security concerns at the same time as it 
would engage key regional players in underwriting long-term 
peace and stability in Afghanistan can also help build the 
foundations of regional economic engagement and integration.
    Before I conclude, it's worth pausing for a moment to think 
about what this debate is not about. It's not about finger-
pointing for past mistakes. It is not about the performance of 
our troops, which has often been superb. It's not about whether 
their fight has been worth it. We have an overwhelming reason 
to ensure that Afghanistan cannot again offer sanctuary to al-
Qaeda. And the fighting to date has brought us to the point 
where al-Qaeda is severely degraded. It is not about whether 
COIN is right or wrong as a theory of how to fight insurgency. 
And it's not about whether Afghanistan can ever be governed.
    It's about getting from where we are now to where we want 
to be, a realistic vision of a secure, stable, and self-reliant 
Afghanistan. Achieving that goal requires seizing the 
opportunity and the political space, afforded us by Osama bin 
Laden's death, to orchestrate and schedule negotiations on a 
final political settlement within Afghanistan and a broader 
regional, economic, and security agreement. In the meantime, as 
the endgame begins, we must move as rapidly as possible to 
supporting only those Afghan forces and officials who 
demonstrably take responsibility for their own security and 
development. That was, after all, the central premise of how we 
distributed funds to European countries under the Marshall 
Plan.
    In the end, success is a matter of aligning incentives. Our 
military strategy must work side by side with a development 
strategy and a diplomatic strategy that focuses on building 
incentives for all the relevant players--Afghan villagers in 
growing urban populations, Afghan troops, the Afghan 
Government, the Pakistani Government, the Afghan and possibly 
the Pakistani Taliban, India, China, Russia, Turkey, Europe, 
and others--to act in ways that will advance their own 
interests and our ultimate goals. That is a job for our 
diplomats more than it is for our military and development 
experts. It may seem like an impossible job, but the sooner we 
begin it, the higher the chances of success.
    Thank you.
    [The prepared statement of Dr. Slaughter follows:]

               Prepared Statement of Anne-Marie Slaughter

    Let me begin with three very different and dramatic images.
    First, consider the image of our troops posted in remote and often 
barren outposts in the mountains and valleys of Afghanistan, working 
under fiercely difficult conditions to protect villagers and fight the 
Taliban. In the aftermath of Osama Bin Laden's death a former 
paratrooper with the U.S. Army Special Operations Command wrote of his 
deployment: ``Our job was to build a sustainable nation in a Mad Max 
wasteland, and we did our duty.'' \1\ The crazy lawlessness of Mad Max 
similarly permeates the Oscar-nominated documentary ``Restrepo,'' as 
well as the descriptions of other outposts in the Korengal Valley in 
Bing West's 2011 book ``The Wrong War.''
---------------------------------------------------------------------------
    \1\ D.B. Grady, ``Veteran's Day,'' The Atlantic, May 2, 2011, 
http://www.theatlantic.com/international/archive/2011/05/veterans-day/
238138/.
---------------------------------------------------------------------------
    The second image is of the extraordinary operation carried out by 
the highly skilled and trained team of Navy SEALs who carried out the 
successful attack against Osama Bin Laden's compound. Amid the deep 
satisfaction of having finally caught the man who symbolized al-Qaeda 
and the attacks on 9/11 more than any other has been a deep pride in 
the capabilities, organization, and preparation of these young men and 
the intelligence, analysis, and institutions behind their operation. 
They succeeded in accomplishing a key piece of the mission our troops 
are in Afghanistan to do: degrading and destroying al-Qaeda. But this 
success did not follow from state-building operations on the ground in 
Afghanistan itself. Indeed, the operation did not even take place in 
Afghanistan, but in Pakistan.
    The third image is of young Arabs from Tunisia, Egypt, Bahrain, 
Yemen, and now Syria mustering the courage to face bullets, beatings, 
and brutality to claim their basic rights as human beings: to speak and 
assemble freely, to participate in deciding how they will be governed, 
and to hold their governments accountable for the provision of basic 
services and the possibility of a better life. The determination of 
these protesters, in the millions, to demand far more of their rulers, 
even in desperately poor and conflict ridden countries, is exactly the 
attitude of responsibility and self-reliance that we hope to see among 
the people of Afghanistan, but do not. Instead, reports from the field 
all too often describe a culture of dependence, corruption, and 
inflated expectations that we have helped to create.
    As we reexamine our goals in Afghanistan and the next phase of how 
to secure those goals, it is worth bearing these three images in mind 
and reflecting on both the connections and the disjunctions between 
them.

                        THE AFGHANISTAN WE SEEK

    We seek a secure, stable, and self-reliant Afghanistan that does 
not provide sanctuary for al-Qaeda and that is a cross-roads for an 
increasingly prosperous and secure region.
A Secure Afghanistan
    A secure Afghanistan would be a country with low levels of violence 
that is defended and policed by its own local, regional, and national 
forces. Security means not only an end to open conflict between the 
government and insurgents and/or warlords, but also the kind of 
everyday safety that allows citizens to go to work and to send their 
children to school. It means a country free from the continual fear of 
violence or death, whether targeted or random.
    Establishing that kind of security across Afghanistan requires not 
only building up Afghan police and military forces but also creating 
the incentives for them to risk their lives for the sake of protecting 
their people. It also means removing U.S. troops as focal points and 
targets for Taliban attacks, attacks that end up alienating the very 
villagers that our soldiers seek to protect and win over. COIN assumes 
that if we protect and serve the population of a village they will have 
incentives to give us the information we need to protect ourselves and 
drive out the enemy. In some cases, for some periods of time, that has 
proved true. But it is a strategy that assumes the troops providing 
protection are there to stay for as long as it takes to erase the 
possibility of retaliation by the enemy that was informed upon. As long 
as villagers know that we are going to leave some day, as we will, and 
as long as they lack faith in their own government to protect them, 
their instincts for self-preservation will tell them to keep quiet. 
Their incentives are to go with the winner, not make us the winner.
    The only real long-term security flows from competent and honest 
government, whether in a village in Afghanistan or city neighborhoods 
in the United States. Real security in Afghanistan can come only if the 
central government either has the incentives to choose and keep capable 
and honest local and regional officials or a new constitution allows 
for more decentralized election of such officials and mechanisms for 
citizens to hold them directly accountable. Honest and capable Afghan 
officials exist. The most frustrating and often heart-wrenching stories 
over the past decade are those of mayors or police chiefs or governors 
who temporarily succeeded in serving their people, only to be murdered 
without retribution or deliberately fired by the central government and 
replaced with cronies.
    The key question going forward is how to align the Afghan 
Government's incentives with serving the interests of its people at 
every level. Many different strategies have been tried, but if we are 
in fact embarking on a public transition, we make clear that we will be 
investing in winners. Our development dollars, our civilian assistance, 
and our military advising and support will flow to those villages, 
towns, cities, and provinces that demonstrate the ability to help 
themselves. When a competent official is replaced with an incompetent 
one, we will shift resources elsewhere.
    In the short term, adopting this strategy could well mean accepting 
less success for U.S. dollars, in the sense of fewer program outcomes 
or even less territory secured. Military commanders and civilian 
program administrators have to be able to pull the plug on partially 
secured territory as soon as Afghan forces demonstrate that they are 
unwilling to take sufficient responsibility for local security and on 
partially completed programs when local civilian officials fail to meet 
a basic standard of competence. The message at every turn must be that 
we have a strong interest in seeing Afghans succeed in securing and 
rebuilding their country, but such an interest that it means we will do 
the job in their stead.
A Stable Afghanistan
    Stability means predictability. Real stability cannot be imposed or 
even won by military force. It requires a political settlement that is 
sufficiently accepted by all sides to create a long-term political 
equilibrium. And the sooner we begin constructing that equilibrium the 
better.
    In a speech at MIT last week former British Foreign Secretary David 
Miliband argued that ``a political settlement is not one part of a 
multipronged strategy in a counterinsurgency; it is the overarching 
framework within which everything else fits and in the service of which 
everything else operates.'' \2\ He recommends that Western countries 
fighting in Afghanistan set out a unified and strong vision addressing 
the security situation, possible amendments to or interpretations of 
the Afghan Constitution, basic human rights guarantees for all Afghan 
citizens, and the best model of governance for Afghanistan. Such a 
vision, he contends, will provide a diplomatic benchmark against which 
all the negotiating parties can begin to adjust their positions.
---------------------------------------------------------------------------
    \2\ David Miliband, ``The War in Afghanistan: Mending It Not Just 
Ending It,'' speech delivered at the Massachusetts Institute of 
Technology, April 13, 2011, http://davidmiliband.net/speech/the-war-in-
afghanistan-mending-it-not-just-ending-it/.
---------------------------------------------------------------------------
    I can see value in such a course. But I would not presume to 
outline a specific diplomatic strategy here. The business of diplomacy 
is figuring out the fastest and best way to get the parties to the 
table with positions that are sufficiently real and flexible to allow 
for a lasting bargain to be forged. Regardless how we get negotiations 
on a political settlement underway, however, the great advantage to 
actually beginning the political endgame, rather than continually 
contemplating it, is that it will force multiple players to begin to 
reveal their true preferences about what they will and will not accept. 
Only with a sense of real redlines on all sides can a lasting deal be 
constructed.
    The death of Osama bin Laden creates a new opportunity to begin 
real negotiations. The Afghan Government has greeted the death of Bin 
Laden by arguing simultaneously that U.S. forces should be focusing on 
Pakistan rather than Afghanistan, since that is where the real 
terrorists are. At the same time, the leader of the Afghan opposition, 
former Foreign Minister and Presidential candidate, Abdullah Abdullah, 
noted immediately that U.S. forces will still be needed in Afghanistan 
for a long time to come.\3\ The United States has already made clear 
that the death of Osama Bin Laden is not the end of the war in 
Afghanistan. But we should now mark this moment as the beginning of the 
end, a moment that allows us to pivot toward a comprehensive political 
statement that will bring security and stability to Afghanistan and 
greater security to Pakistan while still allowing the United States to 
take whatever measures are necessary to protect ourselves against al-
Qaeda. This pivot will help creates a new set of strong incentives for 
the Afghan Government to engage in the kind of behavior on both the 
development and defense side that warrants our continuing assistance.
---------------------------------------------------------------------------
    \3\ Ben Birnbaum, ``Afghan Opposition Leader: International 
Presence Still Needed After Bin Laden's Death,'' The Washington Times, 
May 2, 20100, http://www.washingtontimes.com/news/2011/may/2/abdullah-
international-presence-bin-laden-death/.
---------------------------------------------------------------------------
    A final political settlement must be durable enough and consistent 
enough with the basic rights and interests of all Afghan citizens to 
allow all countries, corporations, and individual citizens to invest in 
Afghanistan's economic and social capital. Predictability is the 
prerequisite for any kind of long-term investment, and Afghanistan 
needs the kind of investment that will employ its growing youth 
population, its newly educated women and girls, and its different 
tribes and ethnic groups. The architects of a political settlement must 
thus pay equal attention to provisions that will provide a foundation 
for Afghanistan's economic future from trade and investment rather than 
foreign assistance.

A Self-Reliant Afghanistan
    U.N. officials and experienced veterans from Non-Governmental 
Organizations often point out that it is impossible actually to build 
the capacity of a foreign government when the inflated salaries offered 
by foreign governments, NGOs, and international institutions drain all 
local talent from local institutions. When Afghan engineers make more 
as advisers (or even as translators and drivers) to Westerners, it is 
small wonder that local and national government bureaucracies fall 
short. Moreover, the large sums of aid pouring in to a very poor 
country inevitably contribute to growing corruption.
    Moving forward in Afghanistan, it is vital to be much more aware of 
our own inflationary footprint on the Afghan economy and the 
expectations of the Afghan people. It is worth investigating how 
governments and other organizations can possibly conform much more to 
local conditions and pay scales, as many of our soldiers certainly do. 
At the same time, we need a far greater focus on finding export markets 
for Afghan farmers and entrepreneurs and on socially as well as 
economically profitable ways to exploit Afghanistan's mineral sector.
    The recent agreement by Pakistan and India's commerce secretaries 
to improve trade ties across a wide range of sectors and a new-found 
confidence among Pakistani businessmen that they can compete in India's 
markets are promising signs of a willingness to make long-held 
aspirations of broader regional markets a reality. Both Pakistan and 
India's leaders understand the vital importance of economic growth and 
the value in weaving their two economies closer together. At the same 
time, Pakistan has been proposing closer economic ties with Afghanistan 
in ways that could have a direct impact on China and India. Add to this 
mix a proposed natural gas pipeline from Turkmenistan through 
Afghanistan and Pakistan to India, as well as a $500 million project 
financed by the Asian Development Bank to build a 1,300 megawatt, high-
transmission power line carrying electricity produced by hydropower of 
Tajikistan and Kyrgyzstan through Afghanistan to Peshawar in Pakistan, 
and possible energy deposits in Afghanistan itself, and the outlines of 
a regional energy market begin to emerge. The path to greater Afghan 
self-reliance is likely to run through greater regional economic 
integration.
    Afghanistan's rich mineral resources are already attracting massive 
investment, with China the winning bidder for a $3 billion project to 
exploit Afghanistan's largest copper mine. The agreement commits China 
to build a powerplant that can provide electricity to much of Kabul and 
to finance and build Afghanistan's first railroad, which will run to 
the Chinese province of Xinjiang. Afghanistan also has a new outlet to 
the sea, due to a 135-mile road constructed by India connecting the 
Iranian port of Chahbahar with Nimroz province in Afghanistan. It is 
thus increasingly poised to resume its historic (and lucrative) 
position as the trading cross-roads of Central and South Asia.
    The question for the United States is how a regional diplomatic 
agreement that would help address Pakistan's chronic security concerns 
at the same time as it would engage key regional players in 
underwriting long-term peace and stability in Afghanistan can also help 
build the foundations for regional economic engagement and integration. 
Reduced trade barriers and a growing common economic space in India, 
Pakistan, and Afghanistan can radiate outward through a much broader 
Central and South Asian region. From Turkey to China, India to Russia, 
the EU to Singapore, many countries have a strong interest in the 
economic development of this region. And again, when it becomes clear 
that a serious diplomatic process is finally in train, many countries 
will have an incentive to be sure that they have a place at the table.
    Before concluding this discussion of a desirable end state in 
Afghanistan and how to get there, it is worth pausing for a moment to 
reflect on what this debate is not about. It is not about finger-
pointing for past mistakes. It is not about the performance of our 
troops, which has often been superb. It is also not about whether their 
fight has been worth it. We have an overwhelming reason to ensure that 
Afghanistan cannot again offer sanctuary to al-Qaeda and the fighting 
to date has brought us to the point where al-Qaeda is severely 
degraded. It is not about whether COIN is right or wrong as a theory of 
how to fight insurgency. And it is not about whether Afghanistan can 
ever be governed.
    It is about getting from where we are now to where we want to be. I 
have argued for a realistic vision of a secure, stable, and self-
reliant Afghanistan. Achieving that goal requires seizing the 
opportunity and the political space afforded us by Osama Bin Laden's 
death to orchestrate and schedule negotiations on a final political 
settlement within Afghanistan and a broader regional economic and 
security agreement. In the meantime, as the endgame begins, we must 
move as rapidly as possible to a posture of supporting only those 
Afghan forces and officials who demonstrably take responsibility for 
their own security and development. That was, after all, the central 
premise of how we distributed funds to European countries under the 
Marshall Plan.
    In conclusion, success in Afganistan is above all a matter of 
aligning incentives. Our military strategy must work side by side with 
a development strategy and a diplomatic strategy that focuses on 
building incentives for all the relevant players--Afghan villagers and 
growing urban populations, Afghan troops, the Afghan Government, the 
Pakistani Government, the Afghan and possibly the Pakistani Taliban, 
India, China, Russia, Turkey, the EU, and others--to act in ways that 
will advance their own interests and our ultimate goals. That is a job 
for our diplomats more than for our military and our development 
experts. It may seem like an impossible job, but the sooner we embark 
on it, the better the chances that we can get it done.

    The Chairman. Thank you very much, Dr. Slaughter.
    Ambassador Neumann.

   STATEMENT OF HON. RONALD E. NEUMANN, PRESIDENT, AMERICAN 
              ACADEMY OF DIPLOMACY, WASHINGTON, DC

    Ambassador Neumann. Chairman Kerry and Senator Lugar, thank 
you very much for inviting me to appear here, about a month 
after my last trip to Afghanistan. I found that security has 
improved in some areas, but, as everyone is noting, heavy 
fighting is ahead of us.
    It took a long time to get in place the military and 
civilian forces decided on in 2009, longer than many had hoped, 
although many of those hopes were not very realistic. I think 
that lag between decision and action is now distorting the 
discussion of where we are. I believe that the thing to watch 
is what happens next year. If United States forces can transfer 
some of the difficult areas to Afghans, and the Afghans can 
hold them, then transition will begin to have real credibility. 
If not, the strategy will lose all credibility. But, I believe 
these forthcoming operations are much more important than the 
speculative kind of conclusions that people are dashing to at 
the moment.
    The killing of Osama bin Laden is significant, but the war 
is not over. We've all agreed on that, so I won't talk about 
that.
    You asked, in your letter, how policy choices have affected 
the current dynamic. I would say that security is improving and 
politics are a mess. Afghanistan does suffer from a weak 
government with much corruption. These problems are large; they 
are not unique to the area. However, our actions have made many 
of these problems worse.
    Strident public criticism was taken by many Afghans as 
evidence that the United States was turning against Karzai. 
Since, through ignorance, the United States has employed many 
corrupt warlords as contractors, this has created the 
suspicious question, ``Why should I fire my crooks if you won't 
fire yours?''
    Our goal of destroying al-Qaeda remains important, but it 
is not clear to Afghans what this means for our longer term 
policy toward Afghanistan. When I was there, I heard the same 
point from Karzai, from his most strident opponents, from 
Afghans who are not even in politics, saying, ``What does the 
United States want? What does it intend?''
    The result of this has both immediate and longer term 
consequences. For President Karzai, I believe that he has 
developed a strong suspicion that we are either against him or 
we will leave before Afghanistan has the strength to survive. 
And he has intensified his survival strategy, seeking to build 
a network of military and political supporters who will sustain 
him if we bail out. And, for survival, he will tolerate very 
poor performance.
    Clearly, many of the problems of poor governance in 
Afghanistan are Afghan problems. However, I am emphasizing our 
own responsibility because that is a piece of the issue which 
we can work on and fix. And I think we have not paid enough 
attention to it. For Afghans, generally, the confusion results 
in the pursuit of hedging strategies.
    I might move on here, because you're going to tell me I'm 
out of time, and my timing device is not ticking.
    Afghans generally are pursuing hedging strategies because 
of this confusion. Many fear the return of the Taliban, either 
because of our withdrawal or through a political deal. Some 
non-Pashtuns would fight rather than submit to such a return. 
Some are thinking about how to position themselves if the 
Taliban returns, and are even considering a civil war. I heard 
on my visit more talk about thinking about a civil war than I'd 
ever heard before. This hedging, as much as corruption, is 
getting in the way of resisting the insurgency.
    You asked what we need to achieve. We need to clarify our 
long-term intentions. To prevent the return of terrorism, we 
need to build Afghan security forces capable of carrying on the 
level of fighting required as we pull out. The standard I am 
referring to is not impossible, but it does require dynamic 
leaders, as well as essential support capacities that are only 
now being developed, because we didn't choose to begin that 
until recently. This is a process of several years.
    Difficult areas must be turned over to Afghan lead, and I 
think that process needs to start while United States forces 
are thinned out. The Afghans need to be given some opportunity 
to lead, even to fail, before we simply are out the door.
    There is a big difference between some of us here today, 
obviously, although some of the difference between, for 
instance, me and my very respected colleague, Dr. Haass, is 
about the speed at which one tries to turn over. But, I think 
that question is an incredibly serious one.
    I think that we are behind what many people hoped would be 
our time schedule, but that we are right on the cusp of 
beginning to turn over areas in the south within the next 6 to 
12 months. If we cannot do that, then I think the strategy's a 
failure. But, rushing away just as we are getting to that point 
would also, I think, be a great mistake.
    The Afghan central government must control its more 
rapacious local leaders; we all agree on that. This is easy to 
say, very difficult to do, after 30 years of divisive warfare. 
I think we are spending too much in some of our economic 
programs, fueling a culture of dependency and corruption that 
does them no good, since we cannot sustain it. Yet, having said 
that, I understand that Afghans, not we, have to work out 
acceptable political institutions.
    You asked about broader policy considerations. Two that I 
support are regional solution and negotiation, but on the 
understanding that neither provides a fast way out. There 
exists a long instructive history of negotiation to end such 
conflicts, and every one of them took years while fighting 
continued. To expect less in Afghanistan is unrealistic. Nor is 
it clear the Taliban leadership seeks compromise.
    I believe that President Karzai needs to know that he has 
solid U.S. backing to achieve a good agreement, not a fast one. 
I do not believe that separate parallel U.S. negotiations will 
do more than create confusion and counterbidding between 
different parties. I believe our role in negotiations can 
reassure other Afghans that their essential freedoms will be 
protected, something that is very destabilizing now.
    Afghanistan had a long period of peace when its neighbors 
essentially left it alone. We need to focus on recreating this, 
understanding that such a situation requires that the neighbors 
realize that they cannot achieve their maximum desires. It is 
not clear to me that Pakistan recognizes that.
    Additionally, a regional solution that many speak about a 
sort of neutrality requires an Afghan Government capable of 
preserving internal order. If many Afghan parties contend for 
power, they will draw in foreign support, leading to the rapid 
destruction of any neutrality agreement.
    Let me just very briefly, as I close, note three points 
that I've expanded on in my written testimony.
    I think that the effort in Afghanistan is essential to our 
goals in Pakistan. I do not think they can be treated as 
alternatives, because of the way Pakistan looks upon 
Afghanistan. If we are leaving, Pakistan's security issues, its 
strategic analysis of Afghanistan is extraordinarily different 
from whether we have commitment to stay, so that I think it is 
incredibly important to approach Pakistan with the linkage in 
mind.
    I think there is a grave danger of excessive dependence on 
local security forces. I have lived with a number of those 
situations. There are some things that can work; most of them 
are abysmal failures.
    I do not think counterterrorism is an alternative to a 
broader strategy, although it is certainly a part of one. It 
depends on on-the-ground intelligence and resources. If our 
primary approach to Afghanistan is counterterrorism, then what 
we say to the Afghans is, ``All we bring you is endless years 
of slaughter.'' There is nothing in that approach which will 
produce Afghan support for us in that policy. If we are not 
there, at least in part, to help build a country, there is 
nothing in that policy that attracts Afghans.
    I understand the gravity of our deficit. However, I 
understand also, as I believe you do, that the United States 
does not have the luxury of pursuing only one interest at a 
time. I believe that, in the effort to turn over to Afghan 
forces, we can bring down our financial burden to an acceptable 
level. I also believe that the alternative is to grab at some 
patchwork strategy that will cost us far more in the long run.
    And I am pleased to answer your questions. Thank you very 
much for including me.
    [The prepared statement of Ambassador Neumann follows:]

                Prepared Statement of Ronald E. Neumann

    Chairman Kerry, Senator Lugar, thank you for inviting me to appear 
before you today. As you know I was U.S. Ambassador to Afghanistan from 
2005 to 2007. Additionally, I returned last year and again in March of 
this year for 2 weeks. I had the opportunity to visit many parts of the 
country and to talk to Afghan friends and foreign diplomats as well as 
the extensive briefings provided by ISAF and our Embassy. I am speaking 
only for myself, not for the American Academy of Diplomacy, the 
organization of which I am now President.
    I would like to make a few, short comments on the current status 
and then turn to your questions. Much of the current debate turns on 
analysis of what the strategy has accomplished. That desire for instant 
scoring is very American, the American people and the Congress have a 
right to accountability but at the same time the demand for a bottom 
line can also be problematic because it sometimes invites very 
premature judgments. Getting the balance right is important.
    Take security, for example. Judging not only from the views of my 
military colleagues but from what I heard from Afghan friends on the 
ground during my visit, there is definitely more security in parts of 
Helmand, Kandahar, and even in the north. But what does that mean for 
final analysis? Very little. The areas secured need to be turned over 
to Afghan forces and they, in turn, need to hold it with only a very 
light U.S. backing. That has not yet been tried so therefore much so-
called analysis is speculation with inadequate evidence.
    What can we judge? The current strategy is working slower than many 
hoped but not slower than is logical. Washington focuses on policy and 
tends to discount the time lags from decision to execution. We thus 
leap to conclusions of failure about the time one could begin a serious 
analysis. The decision to enlarge forces and money, something I would 
have dearly loved in my time, is about 2 years old. Yet the actual 
troops only completed their arrival 8 months ago and became effectively 
employed less than that. Ditto for civilian programs where people have 
to arrive, learn jobs, develop contacts with locals, etc. Simply put, 
we have had a potentially effective strategy for a rather short time. 
It is certainly too early to claim success yet one can say that the 
trajectory of the policy is working, if not its desired pace.
    Because of the time lag between decision and action we are now in a 
somewhat artificial and highly polarized debate about the numbers to be 
withdrawn. If significant numbers of troops are not withdrawn many will 
call the strategy a failure and if they are withdrawn too quickly we 
may guarantee failure.
    The thing to watch is the next year. If U.S. forces can transfer 
some of the difficult areas such as Helmand to the Afghans, and the 
Afghans can hold them, then transition will begin to have credibility. 
If nothing important or difficult has been transferred a year from now 
the strategy will have to be questioned; perhaps to the point of giving 
up. These forthcoming operations should have much more focus than the 
debate over immediate withdrawal numbers.
    The killing of Osama bin Laden is a significant victory for the 
United States but it is not the end of the war. Mistaking its 
significance could be costly. Insurgent-secured territory in in 
Afghanistan could easily become a new sanctuary area for terrorist 
operations directed against the United States. Al-Qaeda as an 
organization continues to exist and will be under pressure to show its 
strength through action in Afghanistan and against the United States. 
The Arab, Chechen, and Punjabi fighters we see emerging on Afghan 
battlefields will not disappear. The linkages between the Haqqani 
movement and al-Qaeda have apparently become tighter in recent years 
and a more central part of the insurgency. That will not change. We 
turned our back on al-Qaeda before. First, we did little to take it 
seriously after the bombing of our Embassies. The second time, by 
assuming we needed to put little effort into Afghanistan in the period 
2002-04, we let al-Qaeda regrow exactly when they were weak and 
Afghanistan was more secure than it is now. To make the same mistake a 
third time, to count victory before it is in hand, would be 
exceptionally costly.
    Turning directly to your questions, your letter of invitation first 
asked how recent policy choices have affected the current dynamic and 
potential for progress. Honestly, the answer points in two ways. On 
security, on building Afghan army forces, I think the results are 
positive. Politically, however, we have and continue to cause 
confusion. The poor relations with President Karzai have grown over 
several years because of problems on both sides.
    Afghanistan does suffer from a weak government with a high degree 
of corruption. President Karzai is poorly positioned to control these 
problems. He controls very little money since virtually the entirety of 
Afghanistan's development comes from foreign donors and many projects 
are executed without coordination with or consent by the Afghan 
Government. Nor does President Karzai control force since military 
operations are directed by NATO/ISAF. Years of warfare have left few 
Afghans with any confidence that they can rely on pensions or 
continuing employment so there is a strong social pressure to grab what 
one can to protect oneself. These problems are large but not unique to 
Afghanistan.
    However, the way we have gone about addressing them with President 
Karzai has made many problems worse rather than better. Two years of 
strident public criticism by U.S. officials were taken by many Afghans 
as evidence that the United States was against Karzai, perhaps even 
intending to overthrow him. This is because in Afghan culture one would 
never criticize a friend in public in this manner unless the friendship 
was over and the criticism was an excuse for moving against him. The 
idea that the criticism could actually be about what is stated is not 
credible to Afghans. When we continued this behavior it set off a 
search for the ``real'' reasons and inspired many wild conspiracy 
theories.
    Additionally, the United States also has employed equally corrupt 
warlords as contractors. This was done through ignorance, pressure for 
speed, and lack of knowledge of power and patronage networks in 
Afghanistan. Yet the result is to create further questions along the 
line of ``why should I fire my crooks if you won't fire yours?'' NATO 
and USAID are now seeking to clean up their own contracting problems 
but are finding this hard and slow.
    The decision to begin withdrawal of troops in July 2011 caused 
considerable additional confusion. While the decision had various 
caveats about conditions on the ground it was the date that was 
emphasized in President Obama's statements. This convinced many--not 
just Afghans but Pakistanis and even the Taliban--that America was on 
the way out of Afghanistan. Since virtually no one believed that the 
Afghan Army would be ready to take over so quickly, this perception 
created a scramble for survival. The NATO decision to move the 
transition date to 2014 has helped the immediate problem but has not 
responded to the larger need for strategic clarity.
    Currently, there is considerable confusion among Afghans about 
longer term U.S. intentions. When I was in Afghanistan in March I heard 
essentially the same point from President Karzai, opponents like Dr. 
Abdullah, ex-ministers who oppose Karzai and even Afghans who are not 
in politics at all; each asking what our intentions are. This may be 
unfair but the fact is that they do not understand our long-term 
strategic intent.
    The result of all this is that President Karzai has developed 
strong suspicions that we are either against him or will leave before a 
state and army strong enough to survive have been built. Accordingly, 
he has intensified a survival strategy, that is, he is seeking to build 
a network of supporters who will sustain him politically and militarily 
if America bails out or moves against him. For survival he will 
tolerate poor performance in these supporters. From his point of view 
he has little choice if the United States is about to pull the plug; 
and we have not told him otherwise. This may also account for some of 
his efforts to strengthen ties with other regional powers.
    He also is seeking to define himself as something other than an 
American puppet (Afghan history shows that those marked as foreign 
puppets generally came to a bad end when their foreign patron 
departed). This produces public criticism. Sometimes it is excessive 
and unfair to us. Yet we seem not to pay attention to anything less 
than a scream. For example, the issue of control of the private 
security companies began in 2006 but we offered no plans or 
alternatives until the issue became a crisis in 2010. Clearly, many of 
the problems of poor governance are Afghan problems, some resulting 
from years of war and others from the character of individuals. 
However, I emphasize our own responsibility for the worsening of the 
issue because it is a part of the problem that is too little 
understood.
    The result is a messy lack of trust and mutual bad feeling. The 
United States is by far the bigger and stronger player. Hence, if the 
situation is to be improved it needs to start with greater strategic 
clarity from our side. Even if that is possible, patience and time will 
be needed. We have a home to which to return. If things end badly that 
will not be the case for Afghans like President Karzai. That imbalance 
is bound to make him cautious.
    For Afghans more generally, the confusion results in the pursuit of 
hedging strategies. For example, everyone I talked to expects a major 
insurgent push this summer to regain the initiative. If we start 
pulling troops out there is the fear of Taliban victories in parts of 
the country. Many non-Pushtun groups fear this could lead the present 
Afghan Government to make a political deal with the Taliban, bringing 
them back to some measure of power in return for survival of the 
government.
    This may not happen but such an outcome is greatly feared by many, 
particularly the non-Pushtuns. These minorities, Tajiks, Uzbeks, 
Hazaras, and others, were massacred and abused by the Taliban. They 
would fight rather than submit to a return of the Taliban that could 
threaten them. This could be the cause of a civil war. They might not 
wait to see if all their fears are realized. I do not think such a 
civil war is imminent but it is being talked of more than I have ever 
heard before. Groups and individuals are thinking about how to position 
themselves should it occur. This produces the ``hedging'' that, as much 
as corruption, gets in the way of unity in resisting the insurgency.
    You asked what we need to achieve. Clearly we need to answer this 
question because it is the very lack of definition that is causing so 
much Afghan confusion and the hedging strategies I mentioned. Within 
Afghanistan we want to prevent the return of externally directed 
terrorism, to keep out the possibility of terrorism from Afghanistan. 
There is a confusing discussion about whether al-Qaeda post-Osama bin 
Laden remains a threat in Afghanistan or whether this is essentially a 
Pakistani issue. Here I wish only to note my belief that if a movement 
that continues to consider itself at war with us is able to claim 
``defeat'' of a superpower its potential for increasing recruits, 
funding and danger is enhanced. Although quantification is not 
possible, my judgment is that, such an al-Qaeda victory would 
significantly increase the potential for attacks on Americans in the 
world and in the United States.
    We recognize that AQ is a movement that regenerates itself. 
Therefore since a single moment of victory is unlikely the first thing 
we need to achieve after clarity of purpose are Afghan security forces, 
essentially the army, capable of carrying on the level of fighting that 
is likely to remain after our departure. The Taliban are not ``ten feet 
tall'' so the standard I am referring to is not impossible but it does 
require dynamic leaders willing to fight for their country as well as 
their having essential support and logistics capabilities that are only 
now being developed. That said, this is a process, not a single moment 
in time. Certain areas, difficult ones, must be turned over to an 
Afghan lead while U.S. forces are thinned out but remain available in 
extremis. Whether this is possible should become clearer over the next 
year. The Afghan Army must be given some opportunity to learn, even to 
fail, before suddenly being left on its own.
    Additionally, the Afghan central government must control the more 
rapacious local leaders and institute a modicum of fair government so 
that there is a reason for Afghans to support the government. This is 
easy to say and incredibly difficult to do. Afghans must overcome 30 
years of divisive politics. We are spending a great deal on development 
and governance; quite possibly too much in terms of what Afghanistan 
can actually absorb. We may well be fueling a culture of dependency and 
corruption that does them no good since we cannot sustain the cost.
    Yet, having said this I would be very hesitant to suggest that we 
can have fully shaped policy answers. Afghans, not we, have to work out 
acceptable political institutions. That took us years after the 
Articles of Confederation, a secret convention, a grueling ratification 
campaign and an eventual civil war. I doubt a foreign design would have 
made our process easier.
    In the near term we must recognize, as we are beginning to do that 
we do bear some responsibility as well for the corruption. We have 
strengthened warlords, paid little attention to who got contracts and 
what we paid, and then blamed all the problems on the Afghans while 
demanding a change to ``good government'' that was far more complete, 
and therefore unrealistic, than the situation in any of the surrounding 
countries. More recently, we are starting to focus more narrowly on 
behavior that really hurts the war effort and on key institutions like 
the army. I endorse this fine tuning of the anticorruption policy.
    What we can do is to add greatly to the growth of modern, educated 
Afghans capable of adjusting their country to something other than a 
culture of feuding ``commanders'' and short-term political bargains. 
Funding educational exchanges in the long run is worth more than cash 
for work or seed programs not tied to markets, although both have their 
place.
    We can work hard to maintain political space so that new ideas, a 
free media, and different political ideas can put down roots. We must 
do our best to ensure that the Afghan Army remains multiethnic, 
professional, and nonpolitical. We need to come to decisions about how 
we will approach the Afghan elections of 2014. That decision should 
follow from our decisions on forces and money--the tools of influence--
and take into account what is realistically achievable.
    These are all long-term visions and none of them will be possible 
without expanded security. Hence I return to the absolute need to get 
the transfer to Afghan lead right; fast enough to inspire confidence 
and not so wedded to a timetable as to rush to failure.
    Mr. Chairman, Senator Lugar, you asked further what broader policy 
considerations should be part of the dialogue. Two that are frequently 
discussed are a regional solution and negotiation. I support working on 
both while realizing that neither is quick or an alternative to 
fighting. In fact, seen as a quick alternative to war, each would 
become a serious mistake.
    There exists a long history of negotiation to end such conflicts 
and it is instructive. Choose your model; Cambodia, Namibia, El 
Salvador, Algeria with the French, or our own experience in negotiating 
the end to the American Revolution. Each took years of talking. Most 
took some years of talking about talking before serious discussion 
began. To expect less in Afghanistan is absurd, particularly since it 
is not clear whether or not the Taliban leadership is interested.
    Because negotiating any peace that meets our strategic needs is a 
long process it makes sense to begin as soon as possible--but not to be 
in an excessive haste to conclude. We should negotiate in support of 
President Karzai. He is the leader of a sovereign state that must live 
with the result. He needs to know that he has solid U.S. backing to 
achieve a good agreement. And by our presence in the negotiations we 
can, if we choose, also act to reassure other elements in Afghanistan 
that their most essential freedoms will not be sacrificed.
    It is often remarked that Afghanistan had a long period of peace 
when its neighbors left it alone. We do need to focus on recreating a 
regional basis for peace. We need also to understand what that means. A 
regional solution requires that the neighbors realize they cannot 
achieve their maximum desires. It is not clear to me if Pakistan 
realizes that. Perhaps they will not until an Afghan Army is competent 
enough not to lose. Recognizing limits to ambition may require the 
United States to renounce permanent bases and influence projection that 
potentially threatens Iran and Russia. India also needs to be willing 
to observe limits in its own influence with Afghan parties since the 
struggle for influence between India and Pakistan is another source of 
tension.
    Additionally, a regional solution still requires the existence of 
an Afghan Government capable of preserving internal order. If many 
Afghan parties contend for power then they will draw in foreign 
support. Support of one power will draw in another to protect its 
interests. The result would be the rapid destruction of an agreement on 
neutrality. Hence, with regard to a regional peace I believe that we 
should start discussing the idea now because it is necessary but we 
should avoid any idea that this approach can be a short cut to the 
exit.
    Some comments on strategies offered by others:
    Pakistan vs. Afghanistan: Some commentators have noted that 
Pakistan is the bigger issue and therefore suggested a shifting of U.S. 
efforts toward Pakistan. I agree on the importance of Pakistan but one 
must be careful to see what is at issue and, therefore, the necessary 
response. Pakistan's policy over three decades has been driven by three 
factors, although their relative weight has shifted in senior Pakistani 
thinking. One is fear of India, including the ability of India to 
threaten it from Afghanistan. The second is a desire to either control 
or exercise preeminent power over the Government in Afghanistan, both 
for Pakistan's own interests and to preempt new Pushtun threats to 
Pakistan's unity. Third, and more recently, Pakistan has had to contend 
with threats from radical Islam within Pakistan.
    It is entirely possible that the first two themes remain dominant 
in Pakistani strategic calculations. In oversimplified terms this means 
that if the United States appears likely to leave Afghanistan then 
Pakistan will make a bid for dominance. Its tools will be Taliban 
insurgents with which it has maintained ties.
    I am of the opinion that Pakistan's strategy would fail; that they 
would trigger a civil war in Afghanistan, that their clients would not 
be able to control the whole country. However, while they were engaged 
in an effort to control Afghanistan in alliance with radical Islamic 
elements I think it likely that Pakistan would not do a good job of 
confronting its own radicals.
    This is a complicated subject that merits expanded discussion at 
another time. Now I only want to draw out two policy points. First, 
Pakistani thinking about its strategy will be much more heavily 
influenced by whether it believes the United States will persevere in 
Afghanistan--something it does not now believe--than by continuing our 
decade's failure to convince Pakistan to alter its basic strategic 
calculus about its interests in Afghanistan and see things our way.
    Second, if Pakistan proceeds as outlined above and does not deal 
strongly with its own radicals, the influence of the latter is likely 
to expand and with it their threat to the Pakistani state. We should be 
alert to this very dangerous threat. We should respond to it better 
than we have in terms of our Pakistani and regional policy. Yet in 
doing so we should understand that our action or inaction in 
Afghanistan will be a large, perhaps the largest element in Pakistan's 
understanding of where its interests lie.
    Decentralization: Two arguments are particularly frequent on the 
subject of decentralization. One is that we need to return to 
traditional Afghan structures. The other is that by building up local 
forces we can sidestep the messy process of reinforcing a central 
government. Both arguments have some merit but both are massively 
overstated and misunderstand much about current Afghanistan.
    The old structure might better be characterized as parallel 
government (a term I owe to anthropologist Dr. Thomas Barfield who is 
much more of an authority on this subject than am I) in which the state 
was responsible for a limited range of functions while others belonged 
to tribes and communities. Recreating this structure runs into all 
sorts of problems. The old state had little to no responsibility for 
development. This is clearly no longer acceptable to Afghans. Yet 
communities and tribes have no resources for development. At the same 
time, the tribal leaders were considerably stronger than is now the 
case. Years of warfare and the growth of militia leaders have weakened 
tribal authority as have the insurgent's systematic assassination of 
tribal leaders. Some form of more decentralized government may well be 
necessary in Afghanistan. However, it will have to be a new evolution 
created by Afghans, not an effort by superficially informed foreigners 
to recreate a partially mythical past.
    Local forces may well be an important component of Afghan defense. 
However, to rely on them as a game changer is a mistake. The record of 
such forces in Afghanistan is one of creating militias responsive to 
commanders who feud with one another, terrorize their neighbors, and 
are incapable of unity against the Taliban. It is exactly the rapacious 
behavior of such local forces that created the conditions that led many 
Afghans to welcome the Taliban in the 1990s. The same overbearing 
behavior and settling of old scores is held by many observers to be a 
primary cause of the resurgent insurgency in Kandahar and Helmand.
    We have a long record of the failures of such forces, including the 
effort to build the Afghan National Auxiliary Police (ANAP) during my 
time. The new effort at constructing units called Afghan Local Police 
(ALP) is somewhat more promising but only because it is being managed 
very carefully to avoid the problems of the past. That very care keeps 
it slow. It is not a program that can be expanded quickly without 
leading to failure. Nor does the ALP program have the potential to be 
more than a useful adjunct to regular security forces. Having talked 
extensively with the people who are running the program it is clear 
that ALP units will be attacked this year. Their survival under serious 
attack will depend on back up from ISAF and Afghan forces. This is a 
mix of forces that may work but it illustrates why reliance on such 
local forces must be limited at best. Additionally, there are a variety 
of so called ``village security forces'' that are far more problematic 
in their composition and leadership. Many of these should be disbanded 
or, at least, not supported by us since they lack appropriate oversight 
and may alienate more people than they secure.
    Counterterrorism will be a component of any military campaign. 
However, it is sometimes spoken of as a policy alternative in terms of 
keeping just enough force to strike terrorists and get out of nation-
building. I will not try to summarize a complicated discussion but I 
want to make one policy point that seems frequently overlooked and 
would probably doom too great a reliance on counter terrorism--it 
offers nothing to Afghans except endless killing. Just striking enemies 
may appear to meet U.S. policy goals on terrorism but this is 
illusionary. Effective strikes must depend on intelligence gathered on 
the ground. If all we have to offer Afghans is a permanent condition of 
the brutality of the last three decades then many will prefer the 
Taliban, will prefer anything to the continuation of such a strategy. 
They will ask us to leave or push us out. And without assets on the 
ground we will not have the intelligence to carry out counterterrorist 
strikes successfully. Thus the policy would fail.
    Mr. Chairman, Senator Lugar, thank you again for inviting me to 
testify. I believe deeply that failure in Afghanistan will lead to 
years of dangerous instability in Central and South Asia and increased 
threats to the United States. A bloody, long lasting civil war in 
Afghanistan that draws in Pakistan, Iran, Russia, and possibly the 
United States would further poison relations across the region with 
dangerous and unpredictable consequences for our own interests.
    Even the modest success I have described is not assured. Yet we 
have a much better chance of succeeding than we had 2 years ago. We 
have no shortcuts that hold any promise of working. Poised between what 
I see as the realistic alternatives we need to clarify our modest long-
term purpose in Afghanistan, make clear that our goals do not threaten 
Afghanistan's neighbors, get on with building the Afghan security 
forces and continue to strengthen better governance at a realistic, 
long-term pace. Over the next few years such an approach can lower our 
financial burden to a sustainable level.
    Mr. Chairman, Senator Lugar, I understand the gravity of our 
deficit. However, I understand also, as I believe you do, that the 
United States does not have the luxury of pursuing only one interest at 
a time. The choice is to persevere responsibly or to run quickly to 
some patchwork strategy that will cost us much more in the long run.
    I would be pleased to respond to your questions.

    The Chairman. Well, thank you very much, all of you. You've 
really helped to frame this debate appropriately. And it's an 
important one. And there are just a huge number of questions 
that leap out of this.
    As I listen to you, each of you make assertions that, on 
their face, sound reasonable. You know, ``They need to work out 
this relationship,'' or, ``They need to have stability or 
prosperity,'' or, ``They need to be able to do this or that.'' 
But, in the end, the process for getting to almost any one of 
those goals, is convoluted, expensive, and needs to be measured 
against the overall mission here. So, let me try to bear down a 
little bit. And I know my colleagues will also try to do this 
as we try to figure it out.
    Ambassador Neumann, you just said ``counterterrorism is not 
an alternative to a broader strategy.'' And you say we can 
afford to do this mission over a long period of time. Let me 
try to measure that against Dr. Haass's proposal here, and see 
if I can get the two of you more engaged in this.
    What is our basic goal? What's the strategic interest to 
the United States? What are we trying to protect, here? What is 
in our national security interest, with respect to Afghanistan, 
per se?
    Ambassador Neumann.
    Ambassador Neumann. Thank you, sir.
    I have very modest goals, myself, having struggled with 
this problem. I think we need an Afghan Army that can carry on 
the level of fighting that is likely to go on for a long time 
in Afghanistan, something we all agree we're not going to get 
peace quickly. I believe we need a government that has a modest 
amount of support so that it can hold this together.
    The Chairman. How much American support do you envision 
having to be there to sustain that Afghan Army?
    Ambassador Neumann. I see us with a declining slope. I 
don't want to put myself in the shoes of General Petraeus or 
our military commander; I think that would be excessive. But, I 
think, over the next year, what one should hope to see in the 
south would be the transfer out--whether to other places or out 
of Afghanistan; it's the President's decision--of most of the 
combat brigades in the south and southwest, while those which 
are partnered with the Afghan Army probably have to stay. 
That's basically the model we had in Iraq----
    The Chairman. Can you give me a ballpark figure? I'm not 
asking you to be General Petraeus--who won't be General 
Petraeus, himself, in a little while----
    [Laughter.]
    The Chairman [continuing]. Over at CIA, but give me a sense 
of the numbers you recommend? What are we talking about? We're 
at 150-or-so-thousand troops now.
    Ambassador Neumann. I would hate to put figures on it, 
because I don't really think that I know enough. But, I would 
say, over a 3-year slope, that that number probably should come 
down by more than half, perhaps considerably more than half. I 
do not know how many additional training forces one is going to 
have to retain, because, to sustain itself in the field, the 
Afghan Army's also going to need medical support and the 
package----
    The Chairman. Don't you have to have an ability to measure 
what the Taliban are capable of and what the Taliban intentions 
will be over that period of time?
    And is there any way to measure that?
    Ambassador Neumann. I don't know if there's a good way to 
measure that, because I've not----
    The Chairman. Does that matter to us? If the Taliban are 
not harboring al-Qaeda, if al-Qaeda doesn't exist, if we have 
an ability to attack al-Qaeda from a sufficient platform that 
exists in the region, why is it of critical interest to the 
United States? I'm being devil's advocate, here, a little bit. 
But, why is it of critical interest to us what happens between 
the Afghans? Haven't they always sought accommodation? And 
won't they seek it anyway?
    Ambassador Neumann. I think my answer begins by disputing 
the premises on which you began the question, sir. I think what 
one sees is a considerable linkage, still, of al-Qaeda. You are 
seeing more foreign fighters, for instance, in the east. The 
linkages with Saraj Haqqani are much more of fundamentalist 
Chechens, Uzbeks, others coming into the battlefield. If----
    The Chairman. Well, let me stop you there so I can get a 
response from the others, because I want to get them in on 
this.
    Ambassador Neumann. OK. Basically, all I'm saying to you 
is, I think, first of all, that separation is not correct; 
second, that if you have a civil war going on in Afghanistan, 
you will see the linkage intensify, because the Taliban will 
need the reinforcement of
al-Qaeda.
    The Chairman. So, you think the United States needs to 
actually be there to prevent civil war.
    Let me ask Dr. Haass. Do you want to respond? Is that where 
that takes us?
    Ambassador Haass. I just disagree profoundly with what I 
just heard. So, let me just make clear what I believe our U.S. 
policy needs to be, and why.
    The goal should be to make sure that Afghanistan is not a 
major platform of terrorist attacks against the United States 
or the world. That is our goal. Our goal is not to build up the 
Afghan Government or have a certain level of U.S. troops. 
That's a potential means of realizing that goal. I do not think 
we should do it with what I would call counterterrorism only, 
but I do think that should be a more central part of our 
policy. There should be a degree of local capacity-building. 
There should be a degree of local diplomacy.
    The Chairman. How is that distinguished from the idea of 
building police, and building armies----
    Ambassador Haass. Oh, because the question is one----
    The Chairman [continuing]. Sustainability?
    Ambassador Haass [continuing]. The question is one of 
balance, and the question is one of scale and emphasis. I think 
that we should have a CT--a counterterrorism policy; that's the 
dominant part. We should try to build up some local capacities, 
but we should be realistic about what it is we're trying to 
build up. We're never going to, I believe, accomplish some of 
the goals I've heard here. And we should save money.
    If we can save $75 billion a year, which I believe is the 
scale of savings we would get from the kind of policy I'm 
talking about, that is one-fourth--one-fourth of the fiscal 
savings everybody suggests we need on a slope of $300 billion a 
year. We would get 25 percent of what we need through this 
policy, alone. And that is an extraordinary bit of progress 
that we could get. And I believe we could get it without 
materially affecting the prospects for what our goal is in 
Afghanistan, which is to make sure it is not a major platform 
of terrorist attacks against the United States.
    The Chairman. OK. Let me stop you there for a minute. I 
want to get Dr. Slaughter in on that, too.
    There's a clear difference here, and we need to explore it 
very carefully. Dr. Haass suggests that the goal is a limited 
one of preventing--say that again--of preventing----
    Ambassador Haass Afghanistan from being a platform----
    The Chairman [continuing]. Afghanistan from being a 
platform for terrorism.
    Dr. Slaughter, you have said that our goal is a stable and 
prosperous Afghanistan. Now, a stable and prosperous 
Afghanistan is, first of all, somewhat nebulous. But, does it 
really take that to protect the interests of the United States?
    Dr. Slaughter. So, I actually agree with Richard that our 
ultimate goal, the reason we're there, is absolutely to prevent 
Afghanistan from being a platform for terrorists who can attack 
the United States. Our difference is how you can accomplish 
that goal. I don't think you can accomplish that goal without a 
political settlement that, longer term, produces a measure of 
security, a measure of stability, and a measure of self-
reliance.
    The problem with the strategy that Richard's articulated 
is, that is the strategy we tried. We did that. For 3 to 4 
years after we invaded Afghanistan, we pursued a narrow 
counterterrorism strategy. And the result was, the Taliban came 
surging back. We did not want to be in Afghanistan, fighting 
the kind of counterinsurgency strategy we are now, but we 
perceived there was--that that strategy had failed.
    The issue now is precisely how we can prevent the Taliban 
from taking over in such a way that the--we're not going to be 
able to negotiate with the Taliban and have them not fight al-
Qaeda, unless we have a political settlement.
    The Chairman. We need to dig into this a lot more. I'm 
confident we will with my colleagues.
    My time is expired on this round. So, Senator Lugar. And 
we'll see where we wind up.
    The committee will be in recess until we can restore order.
    [Recess taken to remove protestors.]
    The Chairman. Folks, you know, this committee has a good 
tradition of really exploring these issues in a very open and 
thorough and unbiased way. And I respect, and I think everybody 
knows this, everybody's right to their point of view and to 
make that known. And you can choose your forum. But, it would 
really be helpful to us if we could ask people to respect this 
process and to allow these proceedings to continue without 
manifestation, interruption, demonstration, or otherwise. I 
think every member, and I think people trying to explore these 
issues, would really respect and appreciate that.
    Senator Lugar.
    Senator Lugar. Dr. Haass, I'd like to follow through on 
Chairman Kerry's questions. If I remember correctly, you 
recommended that U.S. troop presence gradually diminish to 
about 10- to 25,000 personnel in 12 to 18 months. And you've 
indicated that this group would support antiterrorism 
activities in Afghanistan. My understanding of our operations 
currently is that they are very comprehensive. And while 
Afghanistan is not a huge country, it is a large one. Where 
would we place the 10- or 25,000? Or how would you conceive 
their operations, day by day?
    Ambassador Haass. I'd say three things. One is, what I 
would do a lot less of, just to be clear, is combat operations 
against the Taliban.
    Dr. Slaughter. Yes, I agree.
    Ambassador Haass. I would dramatically reduce and phase out 
that dimension.
    Second, in terms of the counterterrorism mission, that 
seems to me a tactical decision, quite honestly, Senator. You'd 
probably want to have some sort of a pool of forces. And then, 
obviously, you'd want to have it distributed wherever you 
thought you were most likely to face--where the intelligence 
suggested you were going to meet terrorists, which, again, are 
quite few in number.
    The training mission, again, is a question of where it 
could be logistically best carried out, with Afghans either at 
bases or in the field. Some of the best training, as you know, 
doesn't take place on bases, but takes place actually outside, 
in the field. So, that to me is--quite honestly, those are 
ultimately implementation decisions.
    I think the big question is one of division of labor; 
again, phasing out combat operations and limiting us to 
training. By the way, not just national forces; I would also 
believe the United States should do training of selected local 
forces. We shouldn't put all our eggs in, if you will, in 
Kabul, Iran, police and army.
    Senator Lugar. Therefore, it's conceivable that, if we had 
people who were skilled in antiterrorism on the ground, we 
would be able to--hopefully, with good intelligence--ferret out 
those who might be contemplating another attack upon us.
    Now, second, as an auxiliary to this counterterror role, it 
would be helpful, obviously, if the government and the military 
of Afghanistan were fairly stable. It sounds as though what you 
describe is a far smaller military footprint. This would then 
be a limited training situation, at that point, of a few 
people, rather than a comprehensive program providing for the 
training of up to 400,000 people, which is often mentioned 
presently. And when that larger program is mentioned, in our 
questions to witnesses, there rarely is mention of who pays for 
all of this and for how many years. Those who conceive such a 
program lasting indefinitely in the future must contemplate 
huge budgetary commitments on the part of the United States 
given that it appears unlikely the Afghan Government will be 
able to generate the income to pay for such a program in the 
foreseeable future.
    But, let me shift to the Taliban. If, in fact, the Taliban 
continue to be around, and, as Dr. Slaughter has said, in a 3- 
or 4-year period of time they came back and they were a 
problem, this is certainly unsatisfying to us, who would like 
to see people thriving in a democratic society. But, at the 
same time, the history of the country has been one of many 
challenges and tribal fissures that has not been very peaceful 
and democratic.
    Isn't it conceivable that the Taliban are always going to 
be around? If this is indeed the case and if our strategy is 
based upon eradicating the country of the Taliban, then that 
strategy really is farfetched. Now, if not the Taliban, it 
appears some other group could increase its appeal on the basis 
of promises to provide more stability than is currently being 
offered by the government. Furthermore, in the absence of a 
central government that even can get out and provide solutions 
to problems taking place throughout the country, isn't it 
likely that there's to be a great deal of local government in 
Afghanistan for a long time?
    So, one of the interesting things about your strategy is 
that while you assume we are going to have to endure a very 
unsatisfying governmental situation, we at least have boots on 
the ground to ferret out potential terrorists who might attack 
us or others in the world as a rationale for being there at 
all. Absent that, it is not clear altogether why we are in 
Afghanistan. In other words, we're not in all of the other 
countries that have terrorists--al-Qaeda,
al-Shabaab, all the rest. Somehow or other, they're getting a 
free pass. We're busy in Afghanistan, expending a huge portion 
of our total defense budget.
    So initially, Dr. Haass and Dr. Slaughter, your ideas are 
appealing, and I want to explore them to make sure my 
understanding of this is correct, because it's clearly running 
counter to where we've been heading. It is sort of clear in the 
budget debate that we're having presently as well. And even in 
your strategy of 12 to 18 months getting there, this is still 
going to be an expensive process. It would require moving 
personnel or getting some other organization going.
    I would just add, finally, that our confidence in President 
Karzai ebbs and flows, but, unless we're really prepared to 
present an alternative, he will be the President of the country 
and corruption will remain apparent. How, indeed, we hope to 
eradicate all of that is hardly clear at all. All that said, I 
think we really need to sharpen our objectives. This is not an 
exercise in cynicism, it's an exercise in the realities of 
Afghanistan and the history of the place and what is possible, 
in terms of our own security.
    Now--and what do you say to all of that, Dr. Slaughter?
    Dr. Slaughter. Thank you, Senator Lugar. [Laughter.]
    So, I would say the first thing is that Richard and I, and, 
I think, maybe Ambassador Neumann--at least Richard and I agree 
that fighting the Taliban is not why we are there. The reason 
we are there is exactly to prevent terrorist attacks on the 
United States. The only question is, What's a successful means 
to that end? When we tried the counterterrorism strategy, we 
couldn't get the intelligence that we needed to be able to 
actively, effectively attack al-Qaeda. We got a----
    Senator Lugar. And why is that----
    Dr. Slaughter [continuing]. We got Osama bin Laden because 
we got intelligence. We couldn't get the intelligence, because 
the Taliban were terrifying villagers, they're still terrifying 
villagers so that, as I said, they have no incentive to give us 
that kind of intelligence. So, we moved from the kind of 
strategy that Richard advocates to a full counterinsurgency 
strategy, where we said, ``We'll get that intelligence by 
clearing, holding, and building, and getting the confidence of 
those villagers.'' I do not think that can work over the long 
term.
    So, the difference is, I'm advocating a political 
settlement that actually gets enough stability--this is not 
going to be some rosy vision of Afghanistan--but enough 
stability so that, in fact, Afghan forces have an incentive to 
fight the Taliban themselves. And we have--and this is 
critical--the ability to stay in the country and get the 
intelligence we need. So, it is a strategy of how you remain in 
the country sufficient to get the intelligence you need to do 
what we both agree, which is, long term, to ensure that al-
Qaeda cannot come back and use Afghanistan as a platform.
    Senator Lugar. Well, in terms of intelligence collection, 
there's no particular evidence that the intelligence that got 
us to Osama bin Laden has any relationship to the Taliban's 
continued activity in Afghanistan.
    Now, without getting into intelligence methods--my point 
is, if you have some people on the ground, maybe we already 
knew that there was an encampment of al-Qaeda there that was 
about to attack us. But, most people writing about that period 
of time indicate that we were not particularly vigilant and 
were not really on that track. Books written about the subject 
indicate that many of the administration still believed Iraq 
was a problem and we could hardly spend any time at all 
thinking about Afghanistan at the time.
    I suppose my hope is that, if we're talking about any 
troops being there, they be of a limited number while retaining 
the capacity to inform the relevant authorities of the 
existence of an al-Qaeda encampment or other assets the 
organization may have in the country. And in response, maybe we 
do something about that camp, that threat, as opposed to acting 
in every village in Afghanistan.
    Ambassador Haass. Can I just--I was involved in the policy, 
as you know, after 9/11. And where I believe the United States 
could have done more then was to have done a bit more training, 
and so forth.
    Again, I am not sitting here advocating a counterterrorism-
only strategy. There is a place for a limited degree of 
training. But, there is a fundamental difference, if we expect 
to build up an Afghanistan--be it through training efforts, aid 
efforts, diplomatic efforts--that's going to be sufficiently 
robust, that is going to be a major partner. It's not going to 
happen. And in all intellectual honesty, sir, I think we have 
to assume, if we adopt something like I am suggesting.
    But, even if we don't, I believe we're going to face a 
future in Afghanistan where the conservative Pashtuns in the 
south and east are going to dominate. And, whether you 
technically call them ``Taliban'' or ``conservative Pashtuns,'' 
that's what it's going to be like. And, to me, the challenge 
for American foreign policy is not to prevent that from 
happening. That is impossible to prevent, I would suggest, 
given the nature of Afghanistan. We ought to try to break the 
historic link between the Taliban and groups like
al-Qaeda. And I believe that that is a link that can be broken. 
Indeed, there's enough statements on the record from people in 
the Taliban suggesting that one should not equate the two. Our 
own military leadership has made such comments. And that's the 
reason I favor having diplomacy.
    I do not think our long-term goal here, as much as perhaps 
we would like it, would be to create this sort of 
``attractive'' Afghanistan, by all sorts of human rights and 
economics and other measures that we would like to see. I 
simply think that is beyond our capacity. And what we have to 
do is accept the fact that there's going to be conservative 
Pashtun, or call it Taliban, inroads in parts of the country, 
and preventing that cannot be the basis of American foreign 
policy in that country. Even modest goals in Afghanistan are 
ambitious. But, ambitious goals in Afghanistan, I would think, 
are simply out of the question.
    Dr. Slaughter. But, that's a strawman. No one is arguing 
for some kind of perfect Afghanistan that respects human 
rights. I think we're actually saying the same thing. You said 
``diplomacy for a political settlement that would, indeed, 
negotiate with the Taliban to peel them away from al-Qaeda, to 
create a government that could actually govern with the 
Taliban, with others, with Pashtuns, with Tajiks, in 
Afghanistan in such a way that we could decrease our footprint, 
but still stay, at least to the extent we need to, to protect 
our interests.''
    Ambassador Neumann. Could I join, as well? [Laughter.]
    I just want to note two things.
    First, Dr. Haass's notion, which, as always, he expresses 
brilliantly, is attractive. But, there are elements of a mirage 
here. The notion of going down, in 18 months, to the levels of 
forces he recommends; it's taken us the better part of 2 years 
to get in place the adequacy of trainers that we have now. This 
notion that you can pivot on a dime, with our large forces, is 
not true. Second, the numbers grossly underplay any kind of 
serious advisory effort. So, this is a recipe for failure. You 
build Afghan forces, you throw them out, after 2 months 
training, without advisors, without backup, as green troops, 
and watch them fall apart; and then you say, ``See, I told you 
the problem--the policy was a failure.'' This makes no sense to 
me.
    There is a relationship between negotiations and fighting. 
If the image we convey with the Afghans is that we're about to 
bail out, the army's going to fall apart because we're not 
backing it, the advisors are too few, there's not a lot of 
incentive for anybody on the other side to negotiate seriously. 
So, there's a difference between saying you will accept a 
Pashtun role----
    The Chairman. Do you mind if I just interrupt here----
    Ambassador Neumann [continuing]. By the Taliban----
    The Chairman [continuing]. And add a question?
    What is the incentive for them to negotiate now? Are they 
negotiating now?
    Ambassador Neumann. No.
    The Chairman. And is there any indication they're about to 
negotiate?
    Ambassador Neumann. I would have to say, at the top 
leadership level, I'm skeptical. I mean, you've heard that from 
all of us. But, if part of what we're saying is, ``You want 
negotiations,'' then to say also that you will essentially move 
quickly away from the military, I think pulls against the 
notion that you can have a successful negotiation. I'm dubious 
you can have it. But, if that is part of your policy, then 
recognize--as former Israeli Prime Minister Rabin said, that 
they had to fight as though there were no negotiations, and 
negotiate as though there were no fighting. If you lose that, I 
think you lose the ability to negotiate.
    The Chairman. Well, I need recognize Senator Casey.
    But, I'd just put on the table the question we haven't 
gotten to yet, and there's a lot more to explore here and sort 
of focus in on the mission. But, what if you had a sufficient 
force there, in terms of counterterrorism, that made it clear 
they would not allow the Taliban to take over the country? Now, 
if that is a stated capacity, with much less involvement, 
there's an incentive to negotiate and you haven't pulled the 
rug out from anybody. So, I think we need to come back and 
think about how other pieces might fit this.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you. Appreciate you 
arranging this hearing. This is a very important hearing among 
many that we'll have, and I'm grateful.
    And, at the risk of some repetition, but around here that's 
important----
    [Laughter.]
    Senator Casey [continuing]. To get our points across, all 
of us--I wanted to focus on the nature of this hearing, in the 
sense that we talk about an endgame, but maybe to focus on the 
description of an endgame.
    And I use, as a predicate to my question, a visit that I 
had to Iraq in the summer of 2007. And, at the time, it was 
about Iraq, obviously, and it was in a dinner meeting, a small 
group of people, including General Petraeus and then-Ambassador 
Crocker. And now that they're both still engaged, maybe the 
question would be relevant again. But, what I was complaining 
to both of them about, as representatives of the Bush 
administration, was the way then-President Bush described the 
endgame or the goal, and sometimes his administration. And I 
was complaining about it. And I said, ``Win and lose is a wrong 
way to talk about it, in my judgment.'' ``Victory and defeat,'' 
the usual language that we use, I thought was inappropriate 
and, frankly, misleading. That was my complaint.
    Ambassador Crocker, at the time, said that his--the way 
he--the language he tended to use--if not all the time, most of 
the time--was--as it relates to Iraq, was ``sustainable 
stability,'' two words.
    I think the American people need to hear, from a lot more 
of us, a basic description of what our goal is in Afghanistan, 
not in a page or a volume, but literally in a sentence or two, 
so we can focus on the goal. If we were sitting in that same 
meeting today, in Kabul or anywhere, and you were sitting there 
and I asked you the same question, What's the best way to 
describe it? And what is the best outcome that you could 
articulate, in a sentence or even a phrase? And I just ask it 
to all three of our panelists.
    Dr. Haass.
    Ambassador Haass. The sentence I used in my testimony, sir, 
was that a ``messy stalemate''----
    Senator Casey. Right.
    Ambassador Haass [continuing]. ``An Afghanistan 
characterized by a weak central government, strong local 
officials, and a Taliban presence that's extensive in much of 
the south and east.'' I would include in that ``a small U.S. 
presence.'' And that, to me--it doesn't sound that different, 
by the way, than what we have now, with a far smaller U.S. 
footprint. And my own view is, that's probably about as good as 
things will get. And that's also good enough.
    Senator Casey. So, you would say that is both achievable 
and acceptable.
    Ambassador Haass. Yes, sir.
    Senator Casey. OK.
    Dr. Slaughter.
    Dr. Slaughter. Thank you.
    So, I said ``secure, stable, and self-reliant.'' 
``Secure,'' meaning much lower levels of violence. ``Stable,'' 
meaning predictable, stable enough so that you can actually 
invest, so some economic activity can regenerate. And ``self-
reliant,'' where the Afghans are taking the lion's share of 
responsibility for their safety.
    I think, in terms of getting there, we're not that far 
apart. It does mean, over time--and I agree with Ambassador 
Neumann, in terms of moving from training--from actually 
fighting to advising. So, we want to actually give these forces 
a chance. But, it means a smaller U.S. footprint. In my view, 
it also, though, requires an overarching political settlement 
in Afghanistan and a larger regional agreement at the same 
time, to actually get us there.
    But, the one sentence is ``secure, stable, and self-
reliant.''
    Senator Casey. Ambassador Neumann.
    Ambassador Neumann. Secure and stable, yes, and I enjoyed 
your comment, because one of the problems I think we have right 
now is, the United States does not have a clear expression. 
Whether or not it's the expression any of us come up with, we 
desperately need it. And not only for the American people, 
clearly where you have your responsibility, but we are not 
projecting, to anyone in Afghanistan, a clarity of purpose 
right now. And that is enormously important. And it's lack is 
debilitating.
    I don't have perfect words in my head, but I think Chairman 
Kerry has put his finger on one key part: that the Taliban 
can't win, that's not the same as stability but, knowing that 
we will persevere to that extent, whether its counterterrorism, 
raids, other things, whether its United States forces--there's 
a lot of issues in there--but, knowing the Taliban cannot win 
is a central piece of Pakistani thinking, of Afghan thinking 
about what they can or can't count on us.
    I think the second thing we need to get at--again, I don't 
think I have perfect words--is: enough support that Afghanistan 
has a chance to rebuild. I'm dubious about using ``stability,'' 
because it is so hard to achieve, for all the issues we 
disagree on. But, maybe it's a good word, but it's very hard to 
get there. But, the sense that they have enough support to 
build stability, in a sense that its in their hands is crucial. 
They can still mess this up, with everything we are capable of 
doing. And I don't want to suggest a goal that depends wholly 
on us.
    But, I would say the stability sufficient that the Taliban 
cannot win, although they can reenter in some form of 
negotiations. And enough sustainability that Afghans can make 
their own decisions. That's not yet at the bumper-sticker kind 
of level that one needs, both for the Americans and the 
Afghans. But, I think those are the two key pieces.
    Senator Casey. Well, one last question with regard to 
Pakistan. I've been to Islamabad twice, and I plan to go back 
this year. And obviously the world has changed so dramatically. 
And, like a lot of Members of Congress, but also like a lot of 
Americans, I've got a series of questions to ask, as it relates 
to who knew what, when, and the details of that.
    But, if you had the chance to sit down with Pakistani 
leaders right now, in light of what's happened over the last 48 
hours or so--and maybe I'll leave this as a question for the 
record, because of time--but, if you could help us formulate 
some of those questions, that'd be helpful for those of us 
traveling. But, I have to say that, when I was there in 2008, 
but even more so in 2009, there was a sense then that the 
relationship, and especially on intelligence-sharing, was 
getting better. That's what I heard from our people. And that 
was encouraging. And obviously there's, at best--and maybe this 
is too optimistic, but, at best, a very mixed record; and, in 
light of what just happened, a very poor record. So, if you can 
help us formulate those questions and help us better articulate 
them, that would be--that'd be great.
    Maybe we can just--I'll put that in the record for a 
question. But, thank you.
    The Chairman. Thank you for that, Senator Casey.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and thank all of 
you for your testimony.
    I think that--as it relates to what's happening today on 
the ground in Afghanistan, I think General Petraeus and others 
have asked that they be allowed to see through this fighting 
season. And I think most people in this body are willing to let 
them go through this fighting season, at present. And so, I 
think we're not really talking about something imminent today.
    But, let me just ask this question, and we--you know, we've 
had Libya and other things on our mind--to all three of you 
briefly. Would you all agree that what we're doing in 
Afghanistan is not a model for the future?
    [No response.]
    Senator Corker. I mean, I think it's a simple yes/no. But--
--
    Ambassador Neumann. I--first, yes, I agree it's not a 
model. Second, if I had to do a fifth war, and I've been in 
four----
    Senator Corker. Yes.
    Ambassador Neumann. I would devoutly like the dynamic 
effective leadership on our side.
    Senator Corker. So, this is not something we can do in 
country after country after country. Everybody agrees that this 
is not a sustainable model. Is that agreed?
    Dr. Slaughter. I do agree that we cannot be engaged in 
country after country, with this degree of responsibility for 
both security and building basic institutions. I do not think 
that is a model that works, going forward.
    Ambassador Haass. Senator Corker, not only would I agree; 
but, since the answer for everyone is yes--and I expect you 
think it's yes, as well--it begs the question then, Why is it 
the model for Afghanistan? And I would simply suggest, it 
should not be and it cannot be for any longer.
    Senator Corker. Well, one of the things that--I'm not as 
much of an expert as you all are on foreign relations, but, 
I've learned around here, it's easy to enter, but it's very 
difficult to leave, and the reasons for being in a place 
continue to evolve.
    But, let me just ask this. So, we keep talking about ``safe 
haven.'' And I'm confused even as to what a ``safe haven'' is. 
I mean, we saw, recently, where a fairly tawny by Pakistan 
standards, neighborhood can be a safe haven. So, what is it 
about Afghanistan--especially to Dr. Slaughter and Ambassador 
Neumann--that makes it more of a safe haven, if you will, than 
some of the other places that we might consider having 100,000 
troops?
    Dr. Slaughter. So, I think we have to go back to where we 
were before. If the Taliban either controls an enormous part of 
Afghanistan unchallenged, or were it actually to take over the 
government again, then effectively you have the ability of al-
Qaeda and other terrorist groups to move----
    Senator Corker. But----
    Dr. Slaughter [continuing]. Freely back and forth from 
Pakistan. If the Pakistanis--the more serious they get, they 
just move over to Afghanistan.
    So, you know, we have to remember where we came from. And, 
indeed, I don't think we would have been able to actually get 
Osama bin Laden, had we not driven him out of where he was in 
the Taliban, put--in Afghanistan--put him on the run. We 
finally drew intelligence from all over the place to actually 
get him. But, we can't think that that--leaving that area 
alone, and leaving Afghanistan possibly still open to a 
government that would be completely willing to host al-Qaeda 
and other terrorist networks, is not a threat to us. That's 
where people are getting trained, that's where attacks are 
still getting mounted. We do have to have a Government in 
Afghanistan that does not host al-Qaeda.
    Senator Corker. But, I'm confused, because I know you 
keep--you've said, I think, that we shouldn't fight the 
Taliban. We are fighting the Taliban. And basically, we're 
fighting criminality in Afghanistan. We're fighting criminality 
on a daily basis. The people that we're locking up in prisons, 
in most cases, are not extremists. We visited one prison where 
there were 1,300 or 1,400 prisoners. There were maybe 80 that 
would be capital-T Taliban. Most of what we are fighting is 
criminality.
    And I hear you and Dr. Neumann saying two very different 
things. I mean, I'm confused. I think you say we shouldn't 
fight the Taliban. I--you know, he says we should be fighting 
the Taliban. It's very confusing to me what the two of you are 
saying.
    Dr. Slaughter. I'm happy to----
    Senator Corker. OK.
    Dr. Slaughter. So, we fought the Taliban, initially, 
because the----
    Senator Corker. But----
    Dr. Slaughter [continuing]. Taliban ruled Afghanistan----
    Senator Corker [continuing]. I'm talking about this----
    Dr. Slaughter [continuing]. And they were the----
    Senator Corker. Yes.
    Dr. Slaughter [continuing]. They were----
    Senator Corker. Today.
    Dr. Slaughter [continuing]. They ousted al-Qaeda.
    Senator Corker. The Taliban today.
    Dr. Slaughter. That's right. The Taliban today made a major 
resurgence, is once again--was and we're degrading them now, 
but was once again in a position to either rule a large part of 
Afghanistan or, conceivably, to take back over the government. 
So, we have pushed them back, to the extent that they should 
not rule Afghanistan. In that sense, I completely agree with 
Ambassador Neumann. They should not rule Afghanistan.
    How are we going to get there? We can get there by 
continuing to fight them. I don't think that's actually a 
strategy that is successful. Or we can get there by negotiating 
with them in such a way to allow a political settlement where 
they're part of the government--they are--as Richard said, 
there are many different types of Taliban--if they will no 
longer host al-Qaeda.
    And, to Senator Kerry's question, I think the death of 
Osama bin Laden gives us an opening to try again to see how 
much they are willing to negotiate. There are many different 
impacts of that death. And we should take that as an 
opportunity. So, I'm suggesting we stop fighting them. We cut a 
deal that allows for a more stable government in Afghanistan 
that will not openly host
al-Qaeda.
    Senator Corker. Probably easier said than done. I would 
agree with that.
    I just want to read a quote from Secretary Gates, on 
February the 17th, ``Being able to turn security over to the 
Afghan forces, against a degraded Taliban, is our ticket out of 
Afghanistan.''
    There's numbers of other questions I would have liked to 
have asked. But, I think the one thing that would stun the 
American people, on the ground in Afghanistan, is how much we 
are investing in this country, and what we are investing in. 
And I think that we have distorted greatly, hugely, their 
expectations, much about their culture, with the--just the vast 
amount of money that is coming in.
    Let me just ask the two of you, if you agree with Secretary 
Gates. And should we very abruptly change the dynamic of 
civilian investment that we have ongoing in Afghanistan and 
really focus more on this degraded Taliban and a quicker exit 
out of there, once we feel we've accomplished that, after this 
fighting season?
    Ambassador Neumann. First, I agree with Secretary Gates. 
And I think a lot of what we are disagreeing about, on the 
panel, is an issue of how fast you can do that without blowing 
it by trying to go too fast.
    Second, I do think we are overspending on the economic 
side. I think we are fueling too many bad tendencies, including 
Afghan dependency. We're paying people to do things they ought 
to do themselves. There is a fair amount of tension also 
between the military spending. So, we need to look, I would 
recommend, at both CERP and at AID.
    Senator Corker. It's both of it----
    Ambassador Neumann. It's----
    Senator Corker [continuing]. Is civilian spending, right? I 
mean----
    Ambassador Neumann. Yes. There's a lot of rapid spending 
for very short-term results that are not sustainable. And I 
don't think that they are as essential. I'd be a little careful 
about draconian cuts. But, I think we're overspending there.
    I do think security--let me put it this way. The Afghan 
Army does not actually have to win the war, for many of our 
goals. It has to be capable of not losing it. That changes the 
negotiating dynamic. That changes the security situation. I do 
think it is our way out. What I am saying, though, is that I 
think this process needs to be looked at very hard so that we 
do not destroy whatever changes we've created for success by 
suddenly moving out much too quickly.
    There's pretty long record of how we get to this. We've had 
some--lot of experience in Afghanistan--in Iraq recently, with 
turning over, as well. And so, I think we should be very 
careful not to jump to totally politically inspired timetables 
of numbers and speed, recognizing that you'll never have as 
much time as, you know, any general or any ambassador would 
like.
    And I'm not an ambassador anymore, I have to note. I do 
testify only for myself, not for the American Academy or 
anybody else.
    Senator Corker. Well, thank you all for your testimony. And 
I do hope we'll look at the civilian spending. And I agree that 
it's happening on both through the military and through our 
State Department. And hopefully that's something, since all 
three of you have very differing--or two of--you have two 
differing views, but all three of you agree with the fact that 
we're spending too much money there on the civilian side. Is 
that----
    Dr. Slaughter. I don't want to be on the record saying that 
I don't. I mean, I think we are spending it in ways that are 
problematic. But, overall, I think we want to pull down on the 
military spending. And very carefully monitored spending on the 
civilian side, I think can work. But, we're putting too much in 
at one time; I'd agree with that.
    Senator Corker. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Corker.
    Senator Menendez and then Senator Durbin.
    Senator Menendez. Thank you, Mr. Chairman.
    I look at the situation in Afghanistan. I look at the $10 
billion per month cost of our counterinsurgency effort. I look 
at nonmilitary contributions to Afghan reconstruction and 
development; almost $23 billion from 2002 to 2010 which is 
expected to increase, obviously, as we seek a transition to a 
civilian mission. And I ask myself, even if we are willing to 
make the enormous economic commitment to build a democracy and 
fund the necessary security elements, at a cost of tens of 
billions of dollars per year, what's the likelihood of our 
success? Seems to me the government is corrupt. Our working 
relationship is strained, to say the least. Our focus on 
building security forces is challenged, because its membership 
largely excludes Pashtuns in the south, which is the base for 
the Taliban. Is there an amount of money or a plan that can 
actually work there?
    Ambassador Haass. I would say no. I would be quite 
explicit. I would say our policy won't work and it's not worth 
it, even if it did work. So, I would actually go beyond that. I 
just think, given the scale of the challenges we face around 
the world, our fiscal situation, I cannot find a strategic 
rationale for the scale of effort that we are undertaking on 
the military and civilian sides in Afghanistan, even if it were 
to work. And again, I think there's a negligible chance, 
Senator, it will work, which only, to me, increases the 
questions that I believe need to be raised about the direction 
and scale of U.S. foreign policy, here.
    Dr. Slaughter. Senator, I don't think we're trying to build 
a democracy in Afghanistan, as the end. Once again, our goal is 
to ensure that there is not a government in Afghanistan that 
hosts al-Qaeda and other terrorist networks in such a way that 
they can freely plan and execute attacks against the United 
States. That's why we went in. That's why we're there. We 
succeeded very quickly, early on. We took our eye off the ball, 
the Taliban started coming back. If the Taliban were to take 
over tomorrow, they would once again host al-Qaeda. We would 
not be able to actually be in country to be able to get the 
intelligence, to be able to do what we need to do.
    So, our focus still has to be a government in Afghanistan 
that does not host al-Qaeda and that is not defeated by the 
Taliban. With that, I think we can, in fact, get to, as I said, 
a secure, a stable, and an increasingly self-reliant 
Afghanistan. Rather than doing it by trying to build the 
country from the ground up, we need to do it politically, 
diplomatically, keeping our forces there by reaching a 
political settlement and a larger regional settlement. Every 
other country in that region has an absolute stake----
    Senator Menendez. At what cost and----
    Dr. Slaughter [continuing]. In a stable government.
    Senator Menendez [continuing]. For how much time?
    Dr. Slaughter. I think that, actually, we can do this in a 
couple of years. I mean, I think we can start the political 
negotiations immediately, and the pace of transition does 
depend on how well the Afghan forces perform. But, increasingly 
there's evidence that some are performing well, when--and we 
can play, then, an advisory capacity. We should not be fighting 
their battles for them.
    Ambassador Haass. There is a fundamental disagreement here. 
This administration, several years ago, decided to--the words 
of the President, ``to take the war, the fight, to the Taliban 
in the south and east of the country.'' We essentially became a 
protagonist in Afghanistan's civil war. I thought that was an 
incorrect decision then. I continue to believe it is an 
incorrect decision now.
    I do not believe we should simply assume that the Taliban 
can take over. I don't believe they can, militarily. I think 
there's way too much pushback, particularly in the north and 
west of Afghanistan. I do think, however, they are likely, no 
matter what we do, to make inroads in the south and east. But, 
I would not assume for a second that Taliban inroads equate 
into al-Qaeda return, that it's stated here--that's a testable 
proposition. There's lots of evidence to suggest the Taliban 
would not do it. But, that's the reason we should talk to them. 
And, if they were ever to do it, that's the reason we should 
attack them. But, I do not believe we should base U.S. policy 
on that, to me, truly unproven assumption.
    I'd just say one other thing. I do not believe the goal, as 
Dr. Slaughter's articulating it, ``self-reliant Afghanistan'' 
is a reasonable goal. I would say it would not simply take us 
several years. I think that is an open-ended commitment for the 
United States, military and economically. And I do not believe, 
again, that that can be strategically defended, given the costs 
and given the opportunity costs, given all else we need to 
worry about in the world and given all else we need to worry 
about here at home.
    Senator Menendez. Originally, Vice President Biden 
reportedly favored a more limited mission in Afghanistan, 
designed solely to interrupt al-Qaeda in Afghanistan and 
Pakistan. And this approach, obviously, envisioned a smaller 
ISAF presence in Afghanistan. Advocates of this approach assert 
that the Government of Afghanistan is not a fully legitimate 
partner, primarily because of widespread government corruption. 
They believe a counterterrorism strategy that relies more 
heavily on Special Operation Forces to track and kill select 
mid-level insurgent commanders, which has previously been shown 
to be effective, and which would be used to attack the al-Qaeda 
and Taliban sanctuaries in Pakistan, would be a better 
approach.
    What are your views on that approach as an alternate? And 
if you don't believe that it's a good approach, what's our 
argument for a broader counterinsurgency strategy instead of a 
targeted, more limited counterterrorism strategy?
    I've always thought that we should have a counterterrorism 
strategy, and while I have been supportive of the 
administration so far, I'm having a real hard time as we move 
forward. So, give me why one over the other.
    Ambassador Neumann. Sir, I think--no one has said you don't 
want that piece in the strategy--I think the big debility with 
at least the press; I'm not sure it was completely fair to the 
Vice President--what was portrayed as a solely counterterrorism 
strategy--is that, I believe that is strategy which, first of 
all, it requires a lot of on-the-ground presence to make it 
work. We've all said that. Second, it is----
    Senator Menendez. More than we have now?
    Ambassador Neumann. No, not more than we have. But, what I 
believe you get, if you have a strategy reduced to that, that's 
not focused on doing anything with and for Afghanistan, is a 
strategy that invariably turns Afghans increasingly against us, 
to the point that that strategy fails as a sole strategy.
    If all our purpose has nothing to do with the purpose of 
Afghans who have to live in their country, then Taliban rule, 
or pretty much anything else that gets us out and ends that, 
becomes an improvement. So, if you really want to create the 
xenophobic reaction to foreigners that so many talk about, then 
have a strategy that is based only on fighting our enemies and 
doing nothing for Afghanistan. I don't mean that we have to be 
in the total ``build a democracy'' mode, but if you deal only 
in extremes, if you deal with the kind of extreme--the press, 
at least, portrayed the Vice President as having ``very small 
U.S. forces to just hit terrorists''--I think that becomes a 
complete failure.
    I do have--it was pretty clear--a serious difference about 
how much strategic interest we have here. My feeling is that 
what you will get, if we have something that can be really 
defined as a loss is--first of all, a huge propaganda victory 
for people who consider that they are at war with us and intend 
to continue that war. I don't know how you measure the 
consequences, but I've never heard of one side quitting 
successfully in the middle of a war.
    Second, I think, in the context of the likely civil war in 
Afghanistan, something much larger than the fighting only in 
the Pashtun south, you draw in Pakistan, you draw in Iran, 
Russia gets drawn in, you end up with an instability that roils 
all of central Asia. I suppose we could turn our back on it. I, 
personally, believe that in that kind of situation, fear of 
India might well lead the Pakistanis to a much stronger support 
for radicals, in that they would be unlikely to deal with their 
own radicalism at the same time. And that also leads to greater 
instability in Pakistan.
    I find this a really frightening prospect, and one that 
scares me enough that I would stick with things, albeit looking 
for ways to spend less, which I think we can do over a year or 
two by cutting troop numbers. But, I think we have to try to 
turn it over to Afghans at a reasonable pace. That has not yet 
been tried. We are only now arriving at the point where we 
start trying it. We ought to see how it works.
    The Chairman. Thank you, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    There are several things which motivate my thinking on 
this. The first is a sense of history. Afghanistan has been a 
graveyard of empires. Nations that have come to this country in 
an effort to suppress or reform it have a long history of 
failure.
    Second, this is the longest war in American history, and 
there's no end in sight. When Ambassador Neumann says, ``We 
would be guilty of quitting in the middle of a war,'' can 
anyone say with honestly, ``We're in the middle of this war?'' 
I'm not sure they can.
    And the third is the fact that I think the road to Kabul is 
paved with good intentions. When you look at a corrupt regime 
running this country, when you look at a $10-$12 billion 
monthly payment by American taxpayers, much of which is being 
wasted and, sadly, portions of which are being diverted to fund 
our enemy, you have to ask yourselves: How long can we sustain 
this?
    Mr. Haass, I read your testimony. And I was really kind of 
cheering you on, until I got to the last paragraph. And I've 
got to ask you about it, because here's what you said, 
``Resolution of the ongoing conflict by either military or 
diplomatic means is highly unlikely and not a realistic basis 
for U.S. policy. Walking away from Afghanistan, however, is not 
the answer.'' I want to ask you about that.
    If this is about money, then clearly spending it, or 
wasting it, is very hard to justify. But, it's about a lot 
more. If you believe that resolution of this conflict by 
military means is highly unlikely and not a realistic basis for 
U.S. policy, how can we send one more American soldier to fight 
and die in Afghanistan?
    Ambassador Haass. It's a good question and a fair question. 
I do not believe that United States interests, to the extent 
they exist in Afghanistan, require a resolution of the 
conflict. That's good news, because we're not going to get a 
resolution of the conflict, sir. But, we can maintain or 
protect ourselves or protect our core interests. Our core 
interest, again, is: Afghanistan ought not to launching pad for 
terrorist attacks against us or the world. We can do that, I 
believe, with a degree of counterterrorism presence and 
activity and a degree of limited, focused training on Afghan 
local and national troops. I believe we can protect our core 
interests with a modest investment. So, that's why I'm trying 
to come up with, not the proverbial middle course, because it's 
actually closer to one end than the other; but, I don't believe 
the answer is withdrawal.
    Senator Durbin. So, those of us--many of us who face this 
vote--faced two votes on Iraq in Afghanistan--23 of us voted 
against the invasion of Iraq; I continue to believe that it was 
the right vote. I voted for the invasion of Afghanistan. I 
voted for it to go after al-Qaeda for what they did to us on 9/
11, and to find and, if necessary, kill Osama bin Laden. Now, 
here we are, almost 10 years later. And I have to tell you, if 
you would have asked me whether I was signing up for the 
longest war in American history, which has no end in sight even 
after the killing of Osama bin Laden, I would have to seriously 
say that wasn't the bargain. That isn't what I thought I was 
voting for.
    And now the question I have is this: If our goal in 
Afghanistan, as Dr. Slaughter has said and I think you've just 
said, is to prevent terrorist attacks on the United States, why 
are we limiting this to Afghanistan? Aren't there other 
countries in the Middle East that are also harboring 
terrorists, wishing ill on the United States? Aren't there 
countries in Africa? So, why have we drawn the line here and 
said we'll stay as long as necessary to reach a ``good-enough'' 
solution in Afghanistan?
    Ambassador Haass. Well, it's actually the same approach I 
would actually suggest for these other countries. What I'm 
trying to do--maybe--it must be a drafting problem and I wasn't 
clear--I am trying to scale down dramatically the United States 
involvement and investment in Afghanistan much more akin to 
what we have been doing in other countries, like Yemen and 
Somalia. I want to emphasis to be on counterterrorism, a degree 
of training.
    But, I agree with you, I don't believe--coming back to 
something Senator Corker said before, I think before you 
arrived--this is not a template that's sustainable, I believe, 
for any other country. I don't believe it's a template that 
ought to be sustained in Afghanistan. The war you signed up for 
10 years ago--and I think you made the right vote, there, in 
signing up for this in Afghanistan, after 9/11--was a limited 
war.
    Senator Durbin. Yes.
    Ambassador Haass. This war has now morphed into something 
much more. We have basically allowed ourselves to become 
protagonists in a civil war. This was a mistake. And I believe 
what we need to do is dial it back, again, to a more limited 
mission, which is the one that you, I believe, correctly signed 
up for. And I believe that limited mission is both affordable 
and in the interests of the United States. I do not believe the 
expanded mission that the United States has allowed itself to 
be drawn into is either affordable or justifiable or defends 
our core vital national security interests.
    Senator Durbin. And it is calling on us to send our 
fighting men and women to fight and die.
    Ambassador Haass. Absolutely. I agree with you on that.
    Senator Durbin. So, we are now in a very sterile 
conversation about diplomacy and foreign policy. The reality 
is, they're fighting and dying over there. And the question is, 
How long will we keep sending them?
    Ambassador Haass. Senator, I think the answer is that there 
is a case--the United States does have a vital national 
interest in--to make sure that Afghanistan does not become, 
again--and this is not unique to Afghanistan, this is similar 
to other countries--a place where terrorists can act with 
impunity. That is something that I believe, because it is of 
vital national interest, our Armed Forces would gladly be 
involved with. But, again, the problem with Afghanistan is, we 
have allowed our mission to grow. We've had classic creep in 
objectives. And that is something that I believe is not in the 
national interests of the United States.
    Senator Durbin. Dr. Slaughter.
    Dr. Slaughter. So, again, we're not disagreeing about the 
endgame, here. I think we all agree that we need to draw down 
our troops substantially. I think the President agrees with 
this.
    The way I would differ with Richard is, we tried a limited 
counterterrorism strategy that--when you voted originally--we 
drove the Taliban out very fast, then we moved to a limited 
counterterrorism strategy. After 3 or 4 years, we turned around 
and the Taliban were deeply resurgent. We did not choose to be 
part of a civil war; we realized that we were at risk of losing 
all the gains we made. And we had to go back in with a 
counterinsurgency strategy.
    Senator Durbin. Let me ask you this question. Is it not 
true--I mean, they tell us--we could gather all of the known 
al-Qaeda--active al-Qaeda in Afghanistan in this room--in this 
room--and yet we are spending $10-$12 billion a month in a war 
with the Taliban, which----
    I've asked this basic question: Can we achieve what we want 
to achieve in Afghanistan without defeating the Taliban?
    Dr. Slaughter. We can achieve that if we have a stable 
government in Afghanistan, that includes part of the Taliban, 
that does not host al-Qaeda. I think we agree. If we can get to 
an agreement where the Taliban can meet certain basic 
conditions, they can be part of the government and they do not 
host al-Qaeda, then we----
    Senator Durbin. And do you think----
    Dr. Slaughter [continuing]. Our interests are served. And I 
think we can get there.
    Senator Durbin. And do you think this Karzai government can 
be the host for that kind of concern?
    Dr. Slaughter. I think we are now in a position where we 
have pushed back enough, and our troops have succeeded in 
pushing back enough, that we are now in a strong enough 
position to enter a negotiation that will not just be the 
Karzai government, it will be a coalition government with a set 
of conditions that will then allow us to dramatically pull down 
our forces. But, we have had to push back, through 
counterinsurgency, because of what we lost through a pure 
counterterrorism strategy. And now we need to move to the 
political phase.
    Senator Durbin. If that's our goal, that negotiation should 
have started yesterday.
    Dr. Slaughter. I could not agree more.
    Senator Durbin. Thank you, Mr. Chairman.
    The Chairman. Before I recognize Senator Shaheen, let me 
just follow up quickly.
    Dr. Slaughter, you said the goal would be that this 
government would include the Taliban as a coalition, having 
negotiated that. Why is it necessary to have that? Why couldn't 
you simply have a government that is promoting its own agenda 
and the Taliban on the outside of it, and have an ongoing 
stalemate? It's their struggle. And, while we are aligned with 
that government that's fighting the Taliban, we have an 
arrangement where we have a platform, we're doing 
counterterrorism, we're making sure the Taliban aren't 
harboring any terrorists, and we also can guarantee that 
they're not going to be able to take over.
    Dr. Slaughter. So----
    The Chairman. Why isn't that adequate? Why do you have to 
go to that next tier?
    Dr. Slaughter. With respect, we have a messy stalemate, of 
the kind you're describing and Richard Haass is describing, 
when we have 130,000 U.S. and allied troops there. Right now, 
if we were to pull out those troops, I do not think we'd have a 
Karzai government, sort of, defending its interests. I think 
you would see----
    The Chairman. Well, we didn't say ``pull out.''
    Dr. Slaughter [continuing]. Major Taliban advances. So, we 
have to get a political solution.
    The Chairman. Nobody has said ``pull out.'' People have 
said ``reduce.'' Big distinction.
    Dr. Slaughter. And I think we're agreed that, if you can 
hand over to the Afghan forces, and we maintain and advisory 
role, then that that can continue, although it's still not as 
strong as a government that actually has at least some Taliban 
as part of it, so that there is, in fact, some kind of 
settlement.
    Ambassador Haass. Senator, could I say something?
    I actually think the model you're suggesting is much more 
realistic. The idea that we're going to be able to negotiate, 
or the Afghans themselves are going to be able to negotiate, a 
broad-based government with discrete power-sharing arrangements 
seems to me highly optimistic. But, I would think it's 
perfectly acceptable that--given, particularly, the localized 
tradition of Afghanistan; you have a weak central government 
that's not necessary nationally representative--that the 
Taliban or conservative Pashtuns, call them what you will, have 
considerable influence again in the south and east of the 
country, and that so long as they are willing to abide by 
certain redlines that we can live with, I do not believe it is 
essential that we have a national compact or a government that 
is unified or self-reliant or anything else. Indeed, to try to 
jam Taliban participation on the Tajiks and Uzbeks and others, 
I would suggest, would not only fail, but would probably be 
counterproductive.
    The Chairman. Let me recognize Senator Shaheen. We'll come 
back to this in a second.
    Yes, Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I think it's fitting, as I'm sure people have said already, 
that we're having this discussion the day--2 days after Osama 
bin Laden has been killed. After all, as you all point out, it 
was his masterminding the attacks on the World Trade Center and 
the United States that got us into this war.
    And so, as we think about what the endgame here is, what 
impact will the death of Osama bin Laden have on that endgame? 
Obviously, it was a huge national security and military and 
intelligence triumph for the United States. But, what will the 
real impact be, if any, on the Taliban who are operating in 
Afghanistan? And does it have any impact on our allies as we 
look at the fight ahead?
    Ambassador Haass. I believe the only way it has significant 
impact would be if it leads the Pakistanis to seriously 
reconsider their continual provision of a sanctuary to the 
Taliban. If this leads, through some sort of new conversation 
between the United--between Washington and Islamabad--to a 
material change in Pakistani policy, then I think it will have 
major repercussions. But, so long as Pakistan is willing to 
play the role it's played for all these years, and provide 
sanctuary to the Afghan Taliban, not only does it mean that 
Osama bin Laden's death will not have material impact on the 
future of Afghanistan, but it will not, essentially, have the 
sort of salutary effects you and I would like to see, you know, 
more broadly.
    Senator Shaheen. Dr. Slaughter.
    Dr. Slaughter. Thank you, Senator Shaheen.
    I'm not sure we fully know. And one of the things I'm 
arguing is that we should take this moment to explore. I agree 
that it could change some of our relations with Islamabad. I 
think though it also may change the willingness of some Taliban 
to negotiate. There are arguments that Osama bin Laden was very 
close to the top leadership, Mullah Omar, of the Taliban. With 
him gone, that may create some political space. It's at least 
worth exploring. It also creates political space for us with 
President Karzai. And, in the sense that President Karzai often 
says, ``Well, we're going to stay,'' because it's--we're there 
for our interests more than we are for his.
    This is now a moment where we can say, as we're hearing all 
over the place--although obviously it's a symbolic death, it's 
a very important symbol. And it gives us a chance to pivot. So, 
that may give us more leverage, also, with President Karzai. 
Seems to me, we should seize that moment and explore. We're not 
going to be worse off. We may be substantially better off.
    Senator Shaheen. OK.
    Ambassador Neumann, do you have anything to add to that?
    Ambassador Neumann. I basically agree. I am more--much more 
dubious that it is a moment for negotiations. I have nothing 
against exploring them. But, I think Senator Kerry's 
description of a possible kind of end state was more realistic.
    For one thing, there have been a great many negotiations 
over 30 years in Afghanistan. Almost all of them have fallen 
apart. Most of them, which are power-sharing agreements, have 
not worked. I think we need to get out of the American mindset 
that agreement ends things. Look at negotiations, historically, 
at least in Afghanistan, much more like the agreements of the 
Middle Ages/Renaissance Europe--they'll last until one person, 
one side, is strong enough to break them and go with them.
    So, while negotiations are relevant, but pinning a lot of 
hope on them, or thinking that, because you've inked the page, 
you've got something, I'm pretty dubious about.
    I do agree, on your question, that, very specifically, this 
is a place to push Pakistan. But, recognizing we have interests 
in common, and we probably have interests that oppose. And 
perhaps the thing that we need to clarify most is what the 
interests are that we have that we will sustain.
    The confusion and the doubts of Pakistan, Afghanistan, 
regional players, about us, is enormously debilitating in this 
struggle, because we are such a huge player. Enemies, friends, 
and those that are neither, take position, in part, based on 
where they think we are. And when they don't know, they invent 
the answer. And then they go from that reasoning.
    Senator Shaheen. Well, we're going to have a hearing on 
Thursday to talk about Pakistan, so that will be an opportunity 
to explore that a little further.
    I want to go back to the discussion that Senator Durbin was 
having earlier. And I'm having trouble, I guess, Mr. Haass, 
trying to distinguish between the endgame that you're 
describing, which sounds to me very much like what we've been 
doing in Afghanistan from the time we went in and removed the 
Taliban until we increased our forces. So, I wonder if you 
could just describe in further detail how that's different so I 
can understand the distinctions that you're making.
    Ambassador Haass. What I'm suggesting is different in two 
ways. It's different in where we're trying to get to and how we 
get there. My goal is not a democratic Afghanistan, though I'd 
like to see it. It's not an Afghanistan that's at total peace, 
though I'd like to see it. It's not a unified, strong national 
government. I don't think any of those things is in the cards.
    What I'm looking for is simply an Afghanistan that has a 
minimal level of functionality, where, above all, it is not a 
place where al-Qaeda, or groups like it, act with impunity. And 
the way I believe we achieve that--this is a very modest goal--
the way I would try to achieve it is through a heavy emphasis--
not a sole emphasis, but an emphasis on U.S. counterterrorism 
capabilities, with a degree of training up of Afghan police and 
army forces, both nationally, but also locally, and a degree of 
diplomacy, particularly one on one with the Taliban, to try to 
draw some redlines with them, and also to try to have some sort 
of a regional forum. I would dramatically decrease U.S. troop 
levels. Right now, roughly 100,000; I would reduce them by 
three-quarters or more as quite quickly.
    Senator Shaheen. Can you just talk about why what you're 
just describing is different than what we were doing? Because--
--
    Ambassador Haass. Sure.
    Senator Shaheen [continuing]. It doesn't sound that 
different to me.
    Ambassador Haass. It sounds quite different to me, and 
maybe I'm not articulating it well. But, my--what the--the big 
difference is, the current U.S. policy is trying----
    Senator Shaheen. I'm not talking about the current U.S. 
policy. I'm trying to see if I can understand the distinction 
you're making between what we should be doing now, and what we 
are doing, and how that is different from what we did when we 
initially went into Afghanistan and continued to do, really 
until the buildup after President Obama was elected and began 
to increase troop size and trainers, because----
    Ambassador Haass. Sure.
    Senator Shaheen. I'm not understanding the distinction 
you're making.
    Ambassador Haass. That's--OK, I apologize. I didn't 
understand your question, Senator.
    The original policy, after 9/11, once the government was 
ousted, was a fairly narrow counterterrorism policy. It did not 
involve significant training up of Afghan police or army forces 
at either the national or local level. Now those--between--if 
you add up Afghan national army and police, it probably is more 
than 300,000. So, essentially we have done all that, 
particularly in the last couple of years. Plus, there was not a 
real diplomatic dimension. We allowed the ``Six Plus Two'' 
forum to essentially go into disuse. The United States did not 
try to test the Taliban as to whether they had changed their 
ways, when it came to association with al-Qaeda. So, 
essentially, you know, those are the differences.
    And what we did also--the big difference--what we started 
doing, and I would end doing, is--I would bring to an end 
combat operations against the Taliban. Starting 2\1/2\ years 
ago, the United States made the policy decision that it would 
henceforth target the Taliban militarily. And that was the 
principal rationale for the military increases taken in 2009, 
as well as the subsequent surge. I believe that was ill-
advised, and I want to go back to the phase before that, where 
the United States no longer targets the Taliban, militarily, on 
the assumption that Taliban presence is one in the same as al-
Qaeda return. I think that is an incorrect assumption, and I do 
not believe the United States can--or should, rather--conduct 
policy in Afghanistan based on that. So, I would remove that 
component of our policy.
    Dr. Slaughter. Can I just jump in there?
    Again, the desire of our policy was not to fight the 
Taliban for the Taliban's sake. The desire of our policy was to 
push them back from the gains that they had made when we were 
following a narrow counterterrorism strategy, and, as 
Ambassador Neumann said, also to actually convince the Afghans 
we were there not just to fight terrorism, but because we had 
their interests at heart, as well.
    If we had negotiated with the Taliban 2 years ago, or tried 
to negotiate, we would be in a very different position. I think 
the way we understand this is that we push back enough so we 
are now in a position to negotiate with the Taliban, with 
redlines. Maybe we can do that without the Afghan Government. I 
mean, to Senator Kerry's point, it's still a sovereign country. 
It's a little difficult to be negotiating with the enemy of the 
government independently of the government, but I would say we 
try a comprehensive settlement. If we can't get that, we 
negotiate in other ways. But, we had to push back on the 
Taliban so that we would then be in a position to negotiate the 
kind of solution you're talking about. We're not there to fight 
the Taliban for the sake of fighting the Taliban.
    Ambassador Haass. We, then, obviously have a disagreement 
here. I do not believe we had to do it, because I'm not trying 
to get the Taliban to become great citizens participating in 
the political life of Afghanistan. I only have one simple goal 
with the Taliban. It's that they do not reestablish the sort of 
relationship they had with al-Qaeda. I do not believe we had to 
militarily go to war against the Taliban for the last couple of 
years to do it. I believe we have--always have the option of 
attacking the Taliban directly. Plus, I believe the Taliban--
based upon statements they have made and that have been 
reported back, they, themselves, have come to question their 
deep association with foreigners, which is what al-Qaeda is to 
them.
    But, I think we have to accept, no matter what happens in 
Afghanistan, at some point the south and the east of 
Afghanistan is going to be dominated by Pashtun political 
leadership, which is going to be extraordinarily conservative 
in its behavior. And whether you call them, technically, 
Taliban or not, there's going to be unattractive features of 
that, in terms of their vision of a society and how they go 
about promoting it. But, I think that is inevitable, whether we 
have 100,000 American troops there for 5 more years. And 6 or 7 
more years from now, that will happen, in any event. That is 
the future of Afghanistan.
    At some point, we have to be willing to carry out a foreign 
policy that accepts a degree of local realities and limits. And 
one of the problems with our policy in Afghanistan is, when we 
get too ambitious there, and we don't respect, I believe, 
enough local culture and traditions and realities, we are 
committing ourselves to an expensive policy that will not have 
enduring benefits in any way that are commensurate with the 
military or human or economic investment we are going to be 
making.
    Ambassador Neumann. Very----
    Senator Shaheen. Well----
    Ambassador Neumann. Could I say----
    Senator Shaheen [continuing]. My time is up, but----
    Ambassador Neumann [continuing]. One thing?
    The Chairman. Well, I'll yield back to you, Senator 
Shaheen. I'm perfectly happy to have you pursue and closeout 
the hearing. I have a 12:15 I need to go to.
    But, I just want to weigh in, before I go. And then Senator 
Shaheen will close it out. I----
    This is a very--let me just say, first of all, the 
complexity of this, and the difficulties of reaching adequate 
definitions and understandings of what your, sort of, 
underlying premises are, is obvious. You know, this is 
complicated. It's not easy, No. 1.
    No. 2, we have a bad habit--I want to pick up on what Dr. 
Haass was just saying--we kind of have a habit of saying--you 
know, well, we'll throw out this idea of negotiating, or we'll 
throw out this idea of, you know, achieving the sufficient 
stability, and this and that. But, in the end, good diplomacy, 
and its failure, which is conflict and war, is usually based on 
people's perception about their interests. And it's one thing 
for us to sit here and talk about, ``Hey, you know, we're going 
to try and do this, or we ought to do that, or here's our 
perception.'' But, I find that, very often, it is not 
adequately based on, and in, the realities of the culture that 
we're in the midst of, or their interests and the way they see 
themselves playing out, here.
    You know, most Afghans don't want to see the Taliban 
return. That's a reality. And I don't think enough of our 
discussion has, sort of, taken that reality into account, here. 
You know, poll after poll shows that the Taliban do not have 
widespread support, and they are not seen to represent Afghans, 
or even Pashtun interests, on a national basis. Yet, the 
current approach to negotiations, which we're sort of putting 
on the table here, appears to be almost counterproductive, in 
terms of some of our interests, because it alienates some of 
the ethnic groups that don't feel represented.
    So, you have Pashtuns who feel excluded by the 
negotiations. You have minority Tajiks, Uzbeks, and Hazaras who 
are vehemently against any kind of deal with the Taliban, 
because they still remember the atrocities of the 1990s. You 
have Afghan women who fear they're going to pay a very heavy 
price for peace as the prospect of any of these negotiations. 
And civil society members are strongly opposed to a Taliban 
return.
    So, it seems to me we ought to be able to factor those 
realities into where things may flow, with less troops and with 
the Afghans having to resolve these things for themselves, with 
us there, in a continuing capacity. In terms of the question of 
incentives, what kind of incentives are we providing? I don't 
see us saying we're abandoning the Afghans. I don't see us 
saying we're not going to, you know, be there to represent our 
interests also, and work with them to go through that process, 
and also prevent the Taliban from making any kind of enormous 
significant gain.
    I might add that, regionally, there's a lot of anxiety 
about the Taliban coming back to power in any way. You've got 
Russia, central Asian republics, Saudi Arabia, India. All have 
varying degrees of antipathy to the Taliban coming back. And it 
seems to me that we could work more of a regional effort to try 
to deal with some of that reality than we have. A number of 
people have suggested to me there may be options here with the 
``Stans'' and with Russia and with other countries, including, 
I might add, Iran, that we have not adequately explored. Iran 
doesn't like the Taliban. Iran also doesn't like drug-
trafficking. And it seems to me there are legitimate interests 
here that ought to be explored in other ways here as we go 
forward.
    So, the Pakistan piece of this is obviously critical. And 
there are a lot of questions raised in the wake of Osama bin 
Laden's death. But, I do think that--we're going to have a 
hearing on that--there's a lot we can explore.
    But, I'd just summarize by saying, I think that we really 
have to do more work. And that's the purpose of these hearings, 
to hone in on the realities that we're dealing with, and what 
the possibilities are. We could spend a lot of money for a long 
period of time. And I tend to agree with Dr. Haass, I don't see 
a lot of indicators that that is going to significantly change 
the dynamic on the ground. And I think what's ultimately going 
to change it is Afghans themselves feeling they have a stake 
with a sense of what the long-term power-broker structure is 
going to be. And I think it could be significantly less 
prominently American, and significantly less expensive. And 
that's what we have to really examine here very, very carefully 
as we go forward here.
    So, I know this is worth a lot more discussion, which is 
why we're going to have five more hearings on it, including 
having the Secretary of State come in, toward the end, and 
share her views from the administration's perspective now.
    We will leave the record open for a week for colleagues to 
be able to submit questions in writing, and even to follow up 
on some of those questions that have been placed today.
    I'm extremely grateful to you. I think the three of you 
have very effectively helped to frame the complexity and the 
realities of this debate. And it's a good shaping, if you will, 
for our discussions as we go forward. So I thank you very, very 
much. I think it's been very profitable and very helpful.
    Senator Shaheen, if you would close out the hearing, I'd 
appreciate it.
    Senator Shaheen. I am----
    The Chairman. Oh, I apologize. Well, do you want to ask a 
couple of questions before you do?
    The Chairman. No?
    Senator Shaheen. I do not.
    The Chairman. We will, then, have the record available for 
any submission of additional questions.
    And, with that, we stand adjourned.
    Thank you.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Hon. James M. Inhofe, U.S. Senator From Oklahoma

     Thank you, Mr. Chairman, for holding this full committee hearing 
on the situation in Afghanistan. It certainly is timely in light of the 
elimination of Osama bin Laden this past Sunday.
     For almost 10 years, our men and women in uniform have faced 
hardships in the effort to capture or kill Osama bin Laden, the 
mastermind of the 9/11 attacks, and I congratulate our Nation's finest 
for their tireless pursuit for justice. We rejoice that this monster is 
dead. While we have succeeded in taking out the head of
al-Qaeda, the effects of his death are yet unseen, and could span a 
broad range of possibilities. We must, therefore, not let our guard 
down in the Global War on Terrorism, and must remain ever vigilant in 
protecting our Nation and its people.
     As the ranking member of this committee's Subcommittee on East 
Asian and Pacific Affairs, I also want to recognize at this hearing the 
contribution by the Republic of Korea--our Nation's close friend and 
strong ally in Asia--to the commitment to peace in Afghanistan. In 
fact, last month, South Korea pledged an additional $500 million over 5 
years to the International Security Assistance Force (ISAF) serving in 
Afghanistan. I understand that this additional assistance, a large 
increase over the $180 million in Official Development Assistance (ODA) 
that Korea provided to Afghanistan between 2002 and 2010, will enhance 
the capabilities of the Afghanistan National Security Force and support 
the country's economic and social development.
     Korea has actively taken part in international efforts to rebuild 
Afghanistan, particularly in alliance with the United States, and has 
continually increased its assistance and activities there. From 2002 to 
2007, Korea deployed military medics and engineers in Afghanistan. They 
provided medical service to 260,000 people and helped build the U.S. 
Bagram Airfield.
     Korea officially joined the ISAF in April 2010, deploying 350 
troops to Afghanistan. In July 2010, Korea established its own 
Provincial Reconstruction Team (PRT) in Parwan province in eastern 
Afghanistan. The Korean PRT's activities, which include education 
assistance, health and medical service, rural development aid, improved 
governance and police training, are greatly appreciated by the 
Afghanistan Government and local residents.
     I commend the Republic of Korea for its past assistance to ISAF 
forces and people of Afghanistan and their new pledge of additional 
assistance.
     Thank you again, Chairman Kerry, for holding this full committee 
hearing on the situation in Afghanistan.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
